<html>
<title> - THE EMP THREAT: EXAMINING THE CONSEQUENCES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
               THE EMP THREAT: EXAMINING THE CONSEQUENCES
=======================================================================



                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,

                       INFRASTRUCTURE PROTECTION,

                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 12, 2012

                               __________

                           Serial No. 112-115

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
80-856                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                Daniel E. Lungren, California, Chairman
Michael T. McCaul, Texas             Yvette D. Clarke, New York
Tim Walberg, Michigan, Vice Chair    Laura Richardson, California
Patrick Meehan, Pennsylvania         Cedric L. Richmond, Louisiana
Billy Long, Missouri                 William R. Keating, Massachusetts
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Coley C. O'Brien, Staff Director
                 Zachary D. Harris, Subcommittee Clerk
        Chris Schepis, Minority Senior Professional Staff Member
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     4
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Oral Statement.................................................     3

                               WITNESSES
                                Panel I

Hon. Trent Franks, a Representative in Congress From the State of 
  Arizona:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14

                                Panel II

Mr. Joseph McClelland, Director, Office of Electric Reliability, 
  Federal Energy Regulatory Commission:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27
Mr. Brandon Wales, Director, Homeland Infrastructure Threat and 
  Risk Analysis Conter, Department of Homeland Security:
  Oral Statement.................................................    31
  Prepared Statement.............................................    33
Mr. Michael A. Aimone, Director, Business Enterprise Integration 
  Office of the Deputy Under Secretary of Defense for 
  Installations and Environment, Office of Under Secretary of 
  Defense for Acquisition, Technology, and Logistics, Department 
  of Defense:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38

                               Panel III

Dr. Chris Beck, President, Electric Infrastructure Security 
  Council:
  Oral Statement.................................................    46
  Prepared Statement.............................................    47

                             FOR THE RECORD

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Statement of the North American Electric Reliability 
    Corporation..................................................     6
  Statement of Nickolaus E. Leggett, N3NL, Analyst, Amateur Radio 
    Operator, Inventor, U.S. Citizen.............................    10

                                APPENDIX

Questions From Ranking Member Yvette D. Clarke for Joseph 
  McClellan......................................................    53
Questions From Chairman Daniel E. Lungren for Brandon Wales......    54
Questions From Chairman Daniel E. Lungren for Michael A. Aimone..    57
Questions From Ranking Member Yvette D. Clarke for Chris Beck....    59


               THE EMP THREAT: EXAMINING THE CONSEQUENCES

                              ----------                              


                     Wednesday, September 12, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:11 a.m., in 
Room 311, Cannon House Office Building, Hon. Daniel E. Lungren 
[Chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Long, Clarke, Richardson, 
and Richmond.
    Mr. Lungren. The Committee on Homeland Security 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies will come to order. This subcommittee is 
meeting today to examine the electromagnetic pulse threat.
    I will now recognize myself for an opening statement.
    The Washington, DC area was recently impacted by a deadly, 
fast-moving storm, called a derecho--a word I had never heard 
of before until I found myself in the midst of it--which is one 
of the most destructive and deadly thunderstorm systems in 
North American history. It resulted in 22 deaths, widespread 
damage, and millions of power outages from the Midwest to the 
Middle Atlantic States.
    This derecho provided a glimpse of the kind of 
destruction--just a glimpse of the kind of destruction that 
would result from an electromagnetic pulse (EMP) attack. 
Falling trees and the loss of electric power caused death and 
destruction from Chicago to Virginia. Fortunately, this power 
outage was short-term, which limited the human and economic 
consequences.
    An EMP is a burst of electromagnetic radiation typically 
generated by a high-altitude nuclear explosion or a non-nuclear 
device. Nuclear weapon EMPs are most effective when detonated 
high in the altitude above the intended target. Depending on 
the yield of the weapon and the height of the explosion, 
nuclear EMPs can destroy large portions of the U.S. power and 
communications infrastructure, we are informed.
    Geomagnetic radiation generated by a naturally occurring 
solar storm can also damage the same infrastructure. An EMP 
attack would destroy the electronics and digital circuitry in 
the area of impact, thereby denying electric power to our 
homes, businesses, and military.
    Our country is dependent on electricity to power our 
health, financial, transportation, and business systems. If our 
power system was ever lost for an extended period, according to 
Dr. William Graham, the chairman of the EMP Commission, it 
would have catastrophic and lethal consequences for our 
citizens and the economy. It would also potentially degrade our 
military defenses.
    America's digital dependence grows every year and we 
rejoice in that. But the fact of the matter is that along with 
that dependence comes our EMP vulnerability. What I mean by 
that is America has gotten used to the digital world. It powers 
and is implicated in so much of our everyday life, that if it 
were in fact attacked in a serious way, it would result in some 
cases, unforeseen circumstances. What I mean by that is most 
people don't think about them.
    Computer simulations carried out in March 2010 by Oak Ridge 
National Laboratory demonstrated that an electromagnetic pulse 
from a nuclear device detonated at high altitude or a powerful 
solar storm could destroy or permanently damage major sections 
of our National power grid. According to this Oak Ridge study, 
the collapse of our power system could impact 130 million 
Americans, could require 4 to 10 years to fully recover, and 
could impose economic costs between $1 trillion and $2 
trillion.
    The National electric grid has almost no backup capability 
in the event of a power collapse from electromagnetic pulses. 
According to FERC testimony presented this morning, existing 
bulk power reliability standards don't even address EMP 
vulnerabilities. In addition, with most of the Nation's power 
system under private ownership, who view an EMP event as 
unlikely or so we are told, there is been little preparation 
for a long-term power collapse.
    Although the impact of an EMP event has been examined, 
studied, and debated, I am fearful that little progress seems 
to have been made in mitigating the EMP threat. Although the 
United States has conducted numerous exercises to test our 
readiness against natural events such as hurricanes, we have 
never conducted an exercise to help us prepare for the severe 
consequences of a National power outage from an EMP event.
    I am informed that the Defense Department takes this 
seriously and, therefore, has taken steps to protect many of 
their critical infrastructure from an EMP event. Either they 
are wasting a lot of money because it is not a serious event--
we should stop them from doing it and save us billions of 
dollars--or it is a serious threat to our National defense 
capabilities, and we ought to look in the same way in terms of 
our domestic capabilities. That is, what sustains our standard 
of living, but in some ways, a way of life for the American 
public.
    I don't want to be an alarmist on this. I want to be a 
realist on this. That is why we have asked a number of people 
to testify here today, so that we can get our hands around 
this, at least a little better than we have to this point.
    In today's hearing, we will examine the consequences of an 
EMP attack, and examine whether we are adequately protecting 
our power system and other critical infrastructure from this 
growing vulnerability. My thought is that the more information, 
the greater awareness the American people have and that we as 
leaders have, the better we will be prepared to deal with this, 
as long as we understand what the true consequences are.
    Okay, and so at this point in time, I would recognize my 
colleague from California for a statement representing her side 
of the aisle.
    [The statement of Chairman Lungren follows:]
                Statement of Chairman Daniel E. Lungren
                           September 12, 2012
    The Washington DC area was recently impacted by a deadly fast-
moving storm called a derecho which was one of the most destructive and 
deadly thunderstorm systems in North American history. It resulted in 
22 deaths, widespread damage and millions of power outages from the 
Midwest to the Middle Atlantic States. This derecho provided a glimpse 
of the kind of destruction that would result from an electromagnetic 
pulse (EMP) attack. Falling trees and the loss of electric power caused 
death and destruction from Chicago to Virginia. Fortunately, this power 
outage was short-term, which limited the human and economic 
consequences.
    An EMP is a burst of electromagnetic radiation typically generated 
by a high-altitude nuclear explosion or a non-nuclear device. Nuclear 
weapon EMPs are most effective when detonated high in the altitude 
above the intended target. Depending on the yield of the weapon and the 
height of the explosion, nuclear EMPs can destroy large portions of the 
U.S. power and communications infrastructure. Geomagnetic radiation 
generated by a naturally occurring solar storm can also damage this 
same infrastructure.
    An EMP attack would destroy the electronics and digital circuitry 
in the area of impact, denying electric power to our homes, businesses, 
and military. Our country is dependent on electricity to power our 
health, financial, transportation, and business systems. If our power 
system was ever lost for an extended period, according to Dr. William 
Graham the chairman of the EMP Commission, it would have catastrophic 
and lethal consequences for our citizens and the economy. It would also 
degrade our military defenses. America's digital dependence grows every 
year and along with that dependence, our EMP vulnerability.
    Computer simulations carried out in March 2010 by Oak Ridge 
National Laboratories demonstrated that an electromagnetic pulse from a 
nuclear device detonated at high attitude or a powerful solar storm 
could destroy or permanently damage major sections of our National 
power grid. According to this Oak Ridge Study, the collapse of our 
power system could impact 130 million Americans, require 4 to 10 years 
to fully recover and impose economic costs of $1 to $2 trillion.
    The National electric grid has almost no backup capability in the 
event of a power collapse from electromagnetic pulses. According to 
FERC testimony presented this morning, existing bulk power reliability 
standards don't even address EMP vulnerabilities. In addition, with 
most of the Nation's power system under private ownership, who view an 
EMP event as unlikely, there has been little preparation for a long-
term power collapse. Although the impact of an EMP event has been 
examined, studied, and debated, little progress seems to have been made 
in mitigating the EMP threat. Although the United States has conducted 
numerous exercises to test our readiness against natural events such as 
hurricanes, we have never conducted an exercise to help us prepare for 
the severe consequences of a National power outage from an EMP event.
    Today's hearing will examine the consequences of an EMP attack and 
whether we're adequately protecting our power system and other critical 
infrastructure from this growing vulnerability.
    I now recognize the Ranking Member, the gentle lady from New York, 
Ms. Clarke, for her opening statement.

    Ms. Richardson. Good morning, Mr. Chairman, and those 
before us.
    Before I start my prepared comments, I would like to 
acknowledge the unfortunate passing of Ambassador Stevens of 
Libya and also the several other Foreign Service personnel 
members who we lost. It is times like these on both sides of 
the aisle where it really doesn't matter that there is an 
aisle. We are all here to serve this country and we are very 
grateful for our Foreign Service personnel who advocate and, in 
many instances, implement the policies that we have brought 
forward. So I first would like to do that on behalf of all of 
us.
    Mr. Chairman Lungren and Ranking Member Clarke, it is very 
good and I concur with the Chairman of convening this hearing 
today on the threat of electromagnetic pulse (EMP) that the 
potential impacts that it could have on our critical 
infrastructure, which we witnessed, unfortunately, several 
months ago.
    I look forward to this hearing from our esteemed panel of 
witnesses, including our colleague Congressman Trent Franks.
    I also welcome back Chris Beck to this hearing before our 
subcommittee. It has been a pleasure working with you on this 
subcommittee, and I look forward to your testimony.
    An electronic magnetic pulse can be caused by solar 
activity, nuclear explosions, lightning, or other sources. The 
energy from any electromagnetic pulse can damage or destroy 
electronics, such as cell phones, car computers, and computer 
networks. We have found that we depend upon cell phones in 
times of emergencies. It was quite alarming that through this 
latest storm that we had, the tremendous impact that it had on 
cell phones. We found them not to be immune and to be the sole 
source of our means of communication.
    Our electric grid is also vulnerable to electromagnetic 
pulse. The EMP that knocks out our electric grid would have a 
catastrophic consequence that could result in lives lost, as 
well as having a devastating impact on our economy.
    While an EMP attack on our electric grid is a high-impact, 
low-frequency event, we need to be cognizant of its 
consequences. We can and should take precautions to make our 
electronics and our grid more resilient to an EMP incident.
    The Department of Homeland Security has not identified EMP 
as a high-risk threat, and thus has not included it in its 15 
all-hazards National planning scenarios. I am interested to 
hear from all of our witnesses today whether planning and 
preparing for an EMP attack is appropriate.
    I thank the Chairman and Representative Clarke for holding 
this hearing today. I hope that we can learn forward how we 
might best protect our critical infrastructure against natural 
and terrorist threats.
    Finally, I would like to say, Mr. Chairman, I would like to 
ask unanimous consent that the opening statement of the full 
committee Ranking Member Mr. Thompson be submitted for the 
record.
    Mr. Lungren. Without objection.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 12, 2012
    Thank you, Mr. Chairman for holding this hearing on electromagnetic 
pulse threats. I want to welcome our colleague, Mr. Franks, who will 
testify about his bill, H.R. 668, the SHIELD Act, which has been 
referred to the Energy and Commerce Committee, and the Budget 
Committee.
    I also want to welcome all of our witnesses, but especially Dr. 
Chris Beck, a former staffer of this committee.
    Scientists tell us that a geomagnetic solar storm capable of 
affecting parts of the U.S. electrical grid is an event with a low 
probability of occurrence. However, if such a thing were to occur, it 
could have a serious impact on our electrical transmission system.
    Our witnesses today will be able to shed some light on the 
probability of such an event, and the likelihood and severity of the 
effects on the electric grid and other critical infrastructure.
    But in this time of increasingly tight budgets, we must depend on 
risk analysis to guide us in making the tough decisions about our 
priorities.
    We know the electric grid is vulnerable to disruption. I am very 
interested in the testimony today, to hear about how the Department of 
Homeland Security assesses the risk of geomagnetic storms and other EMP 
threats.
    I am pleased that the North American Electric Reliability 
Corporation has submitted a statement for the record. They are the 
folks on the ground dealing with how the electric industry prepares for 
grid vulnerabilities, and it is important that we listen carefully to 
their findings.
    Thank you again Mr. Chairman, and I yield back.

    Ms. Richardson. Thank you. The next one, I will hold. Thank 
you, sir. I yield back.
    Mr. Lungren. I thank the gentlelady.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Clarke follows:]
              Statement of Ranking Member Yvette D. Clarke
                           September 12, 2012
    Good morning and thank you Mr. Chairman for holding this hearing on 
our efforts to assess the EMP threat.
    I too, also want to welcome our colleague, Mr. Franks, to the 
subcommittee. He has helped write the road map for addressing the EMP 
threat, and I am glad he is here to discuss his bill.
    I also want to welcome our other witnesses today, and especially 
Dr. Beck, who formerly was the staff director for this subcommittee and 
is an expert on this matter. Welcome back Chris. I look forward to all 
the testimony.
    I believe it is important that we find the building blocks for a 
partnership that will bring improvements to the security and 
reliability of one of our most important critical infrastructures, the 
electric grid.
    This hearing will help give this topic the visibility it deserves. 
We all know the grid plays a fundamental role in our lives, our 
economy, and way of life. We simply cannot afford to lose broad 
sections of the grid for days, or weeks.
    It is our very reliance on this infrastructure that makes it 
important to anticipate the worst, and there are many scenarios that we 
should concerned about.
    We are still learning about the significant threat that could come 
in the form of a natural or manmade Electromagnetic Pulse, and we have 
more to learn about the effects of an EMP and geomagnetic disturbances 
to the grid as well.
    Over the past few years, I have followed with interest Secure Grid 
exercises that The National Defense University has held at Fort McNair. 
These series of tabletop exercises on U.S. electrical grid security 
have focused on the effects of a major geomagnetic storm on the 
Nation's electrical infrastructure.
    With the 12-year peak in solar activity approaching in 2012-2013, 
there is considerable upturn in interest from Government agencies, 
including the White House and Congress, in understanding the potential 
impacts if a severe geomagnetic disturbance event should occur.
    Although this is a low-probability event, the consequences of an 
extended and widespread power loss across portions of the country would 
constitute a serious National emergency.
    To me, one of the largest barriers to Government agency disaster 
response is cross-agency coordination and roles of authority--crucial 
elements made more difficult when discussing the privately-owned 
National electrical grid.
    Ultimately, the Secure Grid exercises and other policy discussions 
work to identify preparedness gaps in plans to manage the challenges 
associated with extended power outages, and add urgency to existing 
efforts to identify technology solutions to protect the U.S. grid.
    Hearings such as this serve to highlight areas where the United 
States and its Allies are analyzing the risks that a severe geomagnetic 
disturbance would present, and help us look for international 
approaches to effectively react to these risks.
    While severe solar storms that create geomagnetic disturbances 
cannot be prevented, there are tools and opportunities to mitigate and 
protect the grid from the risks of such an event.
    My colleagues on the Homeland Security Committee and I have spent 
nearly 3 years identifying and reviewing the security protections that 
are in place to mitigate the effects of any intentional or 
unintentional attack on the electric system. Our goal is to determine 
whether appropriate protections are in place that would mitigate 
catastrophic incidents on the grid.
    Our review has required extensive discussions and review with the 
private sector, which owns, operates, and secures the grid. The private 
sector develops its own security standards and also oversees compliance 
with these standards. In short, the private sector has the 
responsibility for securing the grid from electromagnetic events and 
cyber attacks.
    I am very pleased to see the statement for the record submitted by 
the North American Electric Reliability Corporation. These are the 
folks who are closest to the electric grid, and they manage an almost 
impossibly complex flow of energy, not to just our 330-plus million 
people, but also the flow of energy across our borders . . . every day.
    Finally, the U.S. Congress has also acted. In June 2010, the GRID 
Act passed the House of Representatives unanimously. Unfortunately, it 
stalled in the Senate and did not become law.
    The bill would have granted the Federal Energy Regulatory 
Commission expanded authorities to oversee electromagnetic and cyber 
protections.
    This Congress, Mr. Franks has introduced a version of the bill, now 
called the SHIELD Act, which is similar to the GRID Act but focuses 
only on the electromagnetic threat component without the cybersecurity 
component.
    I am a co-sponsor of that bill, and it is our hope that during the 
next Congress we will get the bill through both Houses and to the 
President's desk.
    With that, Mr. Chairman, I yield back.

    Mr. Lungren. Before I introduce our first witness, I have 
written statements from the North American Electric Reliability 
Corporation and private citizen, Mr. Nicholas Leggett. I ask 
unanimous consent that these two statements may be made a part 
of the record.
    Without objection, so ordered.
    [The information follows:]
    Statement of the North American Electric Reliability Corporation
                           September 12, 2012
    The mission of the North American Electric Reliability Corporation 
(NERC) is to ensure the reliability of the bulk power system of North 
America and promote reliability, excellence, and accountability in the 
electric utility industry. In 2007, NERC was designated the Electric 
Reliability Organization (ERO) by the Federal Energy Regulatory 
Commission (FERC) in accordance with Section 215 of the Federal Power 
Act (FPA), enacted by the Energy Policy Act of 2005. To ensure the 
reliability of the bulk power system, NERC relies on the combined 
expertise of the North American electric power industry. NERC works 
collaboratively with industry and Government experts to address issues 
impacting the bulk power system, including the effects of geomagnetic 
disturbances. NERC is pleased to provide written comments as requested 
by the committee to discuss the differences between electromagnetic 
pulses and geomagnetic disturbances, and provide an update on current 
activities underway to address geomagnetic disturbances.
          electromagnetic pulses vs. geomagnetic disturbances
    Geomagnetic disturbances (GMDs) are part of a class of risks called 
High-Impact, Low-Frequency (HILF) events. These events are 
characterized by their potential to impose very large adverse impacts 
on the electric power system (and other infrastructures in some cases), 
their infrequent nature, and hence, the industry's limited experience 
mitigating them. This group of risks includes major disasters such as 
earthquakes, tsunamis, and pandemics. The group also includes man-made 
phenomena such as electromagnetic pulses (EMPs) caused by high-altitude 
nuclear blasts.
    EMP attacks are often studied alongside, and confused with, GMDs. 
One reason is that a component of an EMP, the E3 wave, is similar to a 
GMD in its effects; however, the E3 wave has a larger magnitude and 
shorter duration than a GMD, and it occurs after the grid has already 
been exposed to the other more intense components of an EMP, the E1 and 
E2 waves.\1\ As with GMD, the E3 component can induce currents that 
couple to transmission lines and drive high-voltage transformers to 
saturation, potentially disrupting or damaging equipment of the 
electric power delivery system. There are significant differences 
between EMP and GMD in both the nature of the threat, the science 
behind their impacts, and the scale and form of potential solutions.
---------------------------------------------------------------------------
    \1\ Radasky, W. A., ``High-altitude EMP (HEMP) Environments and 
Effects,'' NBC Report, Spring/Summer 2002, pp. 24-29.
---------------------------------------------------------------------------
    EMPs result from nuclear blasts that represent intentional acts of 
war, something first and foremost in the domain of National defense and 
security. For that reason, the Electricity Subsector Coordinating 
Council (ESCC) concluded that NERC should focus its efforts on the risk 
and underlying science behind the naturally-occurring phenomenon of 
GMD.
                   overview--geomagnetic disturbances
    Solar magnetic pulses emanate from the sun, causing GMDs on Earth. 
According to space scientists, solar coronal holes and coronal mass 
ejections are the two main categories of solar activity that drive 
solar magnetic disturbances on Earth. Coronal mass ejections create a 
large mass of charged solar energetic particles that escape from the 
sun's halo (corona), traveling to Earth in 14 to 96 hours. These high-
energy particles consist of charged electrons, along with coronal and 
solar wind ions.
    GMDs are produced when a large coronal mass ejection occurs and is 
directed at Earth. The interaction between the particle cloud and the 
earth's magnetic field can cause geomagnetically-induced currents to 
arise on the power system. The intensity of the effects on the power 
system depends on a number of factors such as the polarity of the 
magnetic structures created by the charged particle cloud, geomagnetic 
latitude of the impacted system, directionality of the disturbance, and 
geology (electrical conductivity of the ground), as well as power 
system characteristics such as system configuration and power system 
impedances.
    Geomagnetically-induced currents can be measured directly using 
monitors attached to the neutral connections of power transformers. The 
measurements from these monitors, along with alerts and warnings issued 
by the National Oceanographic and Atmospheric Administration (NOAA) 
Space Weather Prediction Center or the Canadian Space Weather Forecast 
Centre, can provide the key information that a GMD event is imminent or 
in progress, and can support or trigger pre-planned operational 
decisions and actions.
                              nerc and gmd
    In November 2009, NERC and the U.S. Department of Energy (DOE) held 
a 2-day workshop on HILF event risk to the North American Bulk Power 
System. The proceedings of this workshop and recommendations were 
documented in a jointly released report in 2010,\2\ which outlined a 
plan to address these risks to the bulk power system, including 
proposals for action and options to respond to GMDs.
---------------------------------------------------------------------------
    \2\ http://www.nerc.com/files/HILF.pdf.
---------------------------------------------------------------------------
    Following the release of the NERC and DOE June 2010 assessment, the 
ESCC, chaired by NERC President and CEO Gerry Cauley, developed the 
Strategic Roadmap to address HILF events through an organized 
combination of industry-led task forces and initiatives, including the 
formation of a NERC GMD Task Force. FERC held a technical conference on 
GMD in February 2011, and NERC held a workshop in April 2011 to develop 
strategies and plans to address this risk. NERC released a NERC Alert 
\3\ to the industry on GMDs in May 2011, providing bulk power system 
owners and operators with immediate operating and planning actions that 
could be taken to mitigate the impact of a large geomagnetic storm.
---------------------------------------------------------------------------
    \3\ http://www.nerc.com/fileUploads/File/Events%20Analysis/A-2011-
05-10-01_GMD- _FINAL.pdf.
---------------------------------------------------------------------------
    NERC issued a Special Reliability Assessment Interim Report on GMDs 
(Interim Report)\4\ in February 2012. The report highlights the 
potential for voltage collapse and the damage or loss of a limited 
number of vulnerable transformers across the North American bulk power 
system. Previous examples of the impact of GMDs, such as a 1989 event 
which led to the fast collapse of the Hydro Quebec system, showed these 
effects. The 1989 event left more than 6 million people without power 
for 9 hours, demonstrating that severe solar storms represent a serious 
risk that can challenge the reliability of the bulk power system.
---------------------------------------------------------------------------
    \4\ http://www.nerc.com/files/2012GMD.pdf.
---------------------------------------------------------------------------
       implementing the task force recommendations and next steps
    In May of 2012, NERC filed comments \5\ with the FERC addressing 
the recommendations outlined in the Interim Report. NERC is currently 
implementing a Phase 2 workplan \6\ for the reconvened NERC GMD Task 
Force that outlines the specific tasks necessary to support these 
recommendations.
---------------------------------------------------------------------------
    \5\ http://elibrary.ferc.gov/idmws/common/
OpenNat.asp?fileID=12989318.
    \6\ http://www.nerc.com/docs/pc/gmdtf/
GMD_Phase_2_Project_Plan_APPROVED.pdf.
---------------------------------------------------------------------------
    NERC is coordinating its efforts on GMD with agencies and other 
stakeholder groups in the United States and Canada such as DOE, NOAA, 
SpaceWeather Canada, the U.S. Geological Survey (USGS), Natural 
Resources Canada (NRCan), the U.S. National Aeronautics and Space 
Administration (NASA), the Canadian Space Agency, the Electric Power 
Research Institute (EPRI), the Institute for Electrical and Electronic 
Engineers (IEEE), the North American Transmission Forum, and other 
industry and scientific organizations. These efforts are focused on two 
key areas: (1) Assessing the vulnerability of the North American 
transformer fleet, using power system modeling with space weather 
simulation and transformer thermal characteristics; and (2) surveying 
the industry for best practices in operations to respond to GMDs and 
updating the NERC Industry Alert. In tandem with these efforts, and in 
support of other HILF events, NERC has released a revamped Spare 
Equipment Database to support the sharing of equipment amongst entities 
in the face of a catastrophic event.
    The potential for voltage collapse and the loss of even a limited 
number of transformers as a result of a GMD is a serious issue that 
should be addressed to minimize the effects on bulk power system 
reliability. NERC, through industry groups and the membership of the 
NERC GMD Task Force, is working to provide power system planners and 
operators with the necessary information to develop better design 
criteria to withstand GMDs, the tools to identify problems that may 
result from GMDs, improved operating procedures to protect reliability 
in response to GMDs event, and mitigating approaches to address impacts 
of GMDs. The approaches and need for action may differ depending on the 
geomagnetic latitude, geology, as well as transformer design and 
health.
    To supplement the work of the NERC GMD Task Force, NERC, EPRI, DOE, 
and 12 industry organizations have funded a collaborative research and 
development project focused on developing and enhancing tools to better 
prepare and manage effects from strong GMDs. Open-source software to 
calculate geomagnetically-induced current has been developed, and 
several commercial software vendors are incorporating GMD studies into 
their power flow packages, so that commonly-used off-the-shelf tools 
will soon be available for industry planners to study the impact of GMD 
on their systems. Additionally, the recent release of publically 
available ``1-in-100-year'' wave-forms by NASA will facilitate industry 
benchmarking and establish common frames of reference for comparative 
analysis.
    The primary goals of the NERC GMD Task Force in its continuing work 
are to:
  <bullet> Provide industry subject-matter expertise and volunteer 
        industry participation as appropriate in the development of 
        tools and practices to study and mitigate the effects of GMDs;
  <bullet> Motivate, review, and verify (where applicable) the work 
        products of NERC and other industry and scientific 
        organizations in support of power system and transformer 
        vulnerability assessment, improved operational practices, and 
        information exchange;
  <bullet> Augment and finalize the Interim Report on GMD; and
  <bullet> Set an industry path forward towards addressing identified 
        vulnerabilities.
    The four key activities to support these goals are:
    1. Vulnerability assessment through system analysis, to enhance 
        system design, operating procedures, and mitigation techniques;
    2. Training of planners and operators;
    3. Spare equipment inventory management; and
    4. Development of improved transformer specifications to withstand 
        geomagnetically-induced current (GIC).
1. vulnerability assessment through system analysis, to enhance system 
        design, operating procedures, and mitigation techniques
    The conclusions of the 2012 Interim Report on GMDs will be 
validated through detailed vulnerability assessment of the North 
American grid, undertaken by industry experts with the support of NERC 
GMD Task Force members, with final results being published in 2013. 
This joint effort will specifically examine transformer vulnerability 
and will take into consideration the two primary risks to reliability 
from GMDs: Reactive power loss and transformer hot spot heating. These 
two phenomena involve two very different time constants: Seconds for 
reactive power loss and potential voltage collapse, compared to several 
minutes for transformer heating.
    NERC has supported the development of publicly-available simulation 
software to support this vulnerability assessment. Commercial software 
vendors are now leveraging this work to incorporate GMD studies into 
off-the-shelf tools. Transformer reactive power and thermal models are 
being validated to focus attention on the appropriate characteristics 
of the system. This information will be used to complete the high-level 
vulnerability assessment which can be used to further industry 
discussion on mitigation strategies. To complete the vulnerability 
assessment, NERC is working with the private sector and with 
Governmental agencies. For example, the NERC GMD Task Force is working 
with:
  <bullet> Transformer vendors, to determine the thermal 
        characteristics of hot spot heating due to geomagnetic-induced 
        currents to identify the risk associated with specific 
        transformer types;
  <bullet> U.S. Geological Survey and Natural Resources Canada, to 
        improve the ground impedance maps of North America, which will 
        improve modeling of the electric fields that cause 
        geomagnetically-induced currents;
  <bullet> Interconnection modeling groups, to improve power system 
        models so the effects of GMDs on and across grids can be 
        simulated;
  <bullet> NASA and the Canadian Space Agency, to develop a credible 
        basis for GMD scenario development, which can differ based on 
        geology and geomagnetic latitude, as well as develop the 
        theoretical maximum GMD; and
  <bullet> The North American Transmission Forum, to support review of 
        confidential information on bulk power system and equipment 
        performance, as well as, to support the vulnerability 
        assessment.
    To support these activities, over the next few months NERC will 
pursue an industry voluntary data request on the existing transformer 
fleet to gather the important transformer characteristics with respect 
to the risks to reliability. The data collected through this request 
would remain confidential and would be subject to NERC's Rules of 
Procedures regarding data confidentiality. If necessary, NERC can make 
a mandatory request for information under Section 1600 of its Rules of 
Procedure.
    Further, in the next few months, the NERC GMD Task Force will 
review and update the existing NERC Alert on GMDs, to ensure that the 
guidance given reflects the most recent information.
2. Training of planners and operators
    NERC will continue to educate industry on GMDs, work with industry 
to refine operator tools and procedures, and have industry consider 
actions such as preemptively increasing reserves, enabling forced 
cooling, or taking equipment out of service in advance of a GMD. As 
part of this transfer of knowledge, it will be vital that open-source 
models are developed to facilitate industry learning, study, and 
action. Further, NERC will also add GMD training as part of its 
existing Operator Certification program.
3. Spare equipment inventory management
    The industry continues to demonstrate its commitment to reliability 
in the response to HILF events. One example is the development of 
programs to share spare equipment in the event of a severe event. 
NERC's Spare Equipment Database has been upgraded with specific focus 
on spare transformers. The Spare Equipment Database is a voluntary 
program whereby owners of long lead-time transformers would share 
information about their spare equipment to facilitate potential 
equipment sharing.
4. Development of improved transformer specifications to withstand GIC
    As a result of NERC GMD Task Force activities, the IEEE 
Transformers committee has begun development on a guide on transformer 
and step response specifications to meet the service conditions related 
to a GMD, as well as, the magnitude and stress cycle due to 
geomagnetically-induced current that transformers should be designed to 
withstand. This project was initiated at the spring 2012 meeting of the 
IEEE Transformers Committee, and NERC will continue to collaborate with 
the IEEE on the progress of this effort and provide technical expertise 
as warranted to its conclusion.

    Over the next 12 months, the NERC GMD Task Force will continue 
working with experts from across the science and engineering spectrum 
to develop the tools and training necessary for the industry to 
incorporate GMD study and mitigation as regular planning and operating 
practice. Just as they prepare for earthquakes, hurricanes, and 
snowstorms, preparations for GMDs should be a part of the electric 
industry's on-going efforts in the future.
                   important role for the government
    From an operational perspective, more useful GMD forecasting is 
needed to support operator action. NOAA and SpaceWeather Canada need to 
enhance warning time frames and granularity of forecasts so industry 
can take the right action, in the most affected parts of North America. 
To ensure that the agencies can provide timely and detailed forecasts, 
it will be crucial that their efforts in satellite development and 
replacement, event simulation and prediction, and communications 
methods to the industry be maintained and enhanced.
                               conclusion
    Work is underway to address the recommendations for industry in the 
NERC Special Reliability Assessment Interim Report on GMDs. NERC and 
its stakeholders have made measureable progress toward mitigating the 
potential reliability impacts of GMDs, by characterizing the 
reliability issues and risk, gathering industry experts to focus on 
short- and long-term solutions, identifying spare equipment data for 
collection, assessing bulk power system resiliency through improved 
modeling, and alerting industry to potential actions they can take to 
fortify their systems from the risks posed.
    NERC is addressing GMD in an open forum with a transparent process, 
leveraging the expertise of utility members, the scientific community, 
and equipment manufacturers, to guide the development of the necessary 
tools and training that will enable the industry to determine 
appropriate responses for its unique but interconnected systems. 
Substantial work remains to further the understanding of the impacts 
from GMDs, to continue improving the scientific methods used in its 
study, to demonstrate solutions, and to support the development as well 
as implementation of mitigation measures in a cost-effective manner.
                                 ______
                                 
    Statement of Nickolaus E. Leggett, N3NL, Analyst, Amateur Radio 
                    Operator, Inventor, U.S. Citizen
                           September 12, 2012
    My name is Nickolaus E. Leggett. I am an analyst, amateur radio 
operator, commercial radio operator, and an inventor who is resident in 
Reston, Virginia. I have been a Federally-licensed amateur radio 
operator since the 1960s. My amateur radio call sign is N3NL. I am a 
credentialed electronics technician (ISCET and iNARTE) and I am an 
inventor with three United States Patents--U.S. Patents 3,280,929, 
3,280,930, and 6,771,935.
                           executive summary
    My testimony discusses the need to develop protections from the 
effects of electromagnetic pulse (EMP) and solar geomagnetic storms. 
The first step is to get Governmental agencies to hold public hearings 
on EMP and suitable protections.
               the nature of electromagnetic pulse (emp)
    Electromagnetic pulse (EMP) is a serious threat to the continued 
existence of the United States as a major military, economic, and 
social power. Indeed, EMP is a major threat to the continued existence 
of the United States in any form.
    High-altitude Electromagnetic Pulse (HEMP) is the generation of a 
very intense pulse of radio waves using a nuclear weapon or device 
exploded in space near the Earth. The radiation from the nuclear bomb 
excites and agitates the Earth's ionosphere which generates a large 
zone of intense radio waves that can disable electronic equipment and 
communications equipment throughout the Nation. Several years ago, the 
Congress commissioned a detailed study of EMP that can be accessed on-
line. Refer to Note 1 at the end of this document.
             consequences of electromagnetic pulse attacks
    A HEMP attack consisting of a single high-yield nuclear weapon 
exploded a couple of hundred miles above the United States would 
disable electronics and communications through most of the Nation. Most 
of our Nation's electronic infrastructure uses solid-state electronics 
and microprocessors that are quite vulnerable to electromagnetic pulse.
    The failure of much of our electronics infrastructure would cause 
serious problems in supplying food, water, electric power, and 
communications to our population. In addition, the functions of 
business, government, and law enforcement would be greatly impaired. 
Panic, rioting, and the failure of law and order would probably occur.
        lack of action by the federal communications commission
    I have devoted many years of my life to bringing the EMP threat to 
the attention of the Federal Communications Commission (FCC). Donald J. 
Schellhardt and I have submitted two formal petitions to the FCC 
calling for a Notice of Inquiry (NOI) and a Notice of Proposed Rule 
Making (NPRM) on EMP. Refer to Note 4. In addition, we have filed other 
formal comments with the Commission on this subject. The FCC has 
declined to take any positive action on EMP.
    I am rather puzzled that the FCC refuses to act to protect our 
communications infrastructure from EMP. The subject is certainly 
interesting and it would be desirable to avoid the great damage that 
would result from any EMP attack. There is ample evidence that EMP is a 
real and serious threat to the Nation. Certainly, if an EMP attack did 
occur, the Nation would not be friendly towards the decision makers who 
refused to protect against EMP attacks and their consequences.
                            hostile nations
    We can all easily imagine several nations that would be quite happy 
if the United States were to collapse in response to an EMP attack. In 
their view, EMP would be a rather convenient method for deleting a 
major competitor. While launching a missile with a warhead from a ship 
is not an easy task, it is certainly easier than other methods of 
eliminating the United States. Also, the structure of the United States 
may become so shattered by an attack that other nations could actually 
colonize parts of the former United States.
                     proposed congressional actions
    The Congress should request or require the FCC to hold rulemaking 
hearings on electromagnetic pulse and effective methods to protect 
communications equipment from it. Probably some form of shielding 
should be required to protect critical communications equipment. 
Similarly, Congress could require the Federal Energy Regulatory 
Commission (FERC) to hold hearings on protecting the electric power 
industry and other energy industries from EMP effects. Similarly, the 
Federal Aviation Administration (FAA) should have hearings on EMP 
impacts on air navigation technology and on the operation of aircraft 
engines.
    Also, the Congress can consider legislation that would require that 
critical infrastructure be shielded against EMP. In developing this 
legislation, the Congress can consult with the International 
Electrotechnical Commission (IEC) that has developed detailed standards 
on protection of infrastructure from EMP.
                        solar geomagnetic storms
    Congress also needs to examine the related natural phenomenon of 
solar geomagnetic storms. This natural phenomenon has a different 
physics from EMP but it is related. An intense solar storm can have a 
similar comprehensive effect that would result in the failure of the 
electric energy grid and other aspects of the infrastructure. Refer to 
Note 2. Federal agencies should be required to have hearings on solar 
geomagnetic storms.
                             amateur radio
    Amateur radio can perform local and long-distance communications 
during and after these chaotic events. Congress should establish 
legislation that would allow amateur radio operators to establish 
minimum-sized amateur radio antennas despite opposition of homeowner 
associations, condominium managements, and rental landlords.
                                our duty
    It is in the Nation's interest that we all work to develop and 
apply effective protections against EMP attacks. Mr. Schellhardt and I 
have spent many years on this subject. Now Congress needs to move ahead 
constructively and deal with EMP threats.
Appendix A--References on Solar Geomagnetic Storms and Electromagnetic 
                                 Pulse
Note 1
    The text of the Congressional Commission to Assess the Threat to 
the United States from Electromagnetic Pulse (EMP) Attack is available 
at the web site: www.empcommission.org.
    This document confirms the serious impact of an EMP attack on the 
infrastructure of the United States.
Note 2
    Severe Space Weather Events--Understanding Societal and Economic 
Impacts--A Workshop Report, National Academy of Sciences, National 
Academies Press, Publication Year 2008, PAPERBACK, ISBN-10:0-309-12769-
6, ISBN-13:978-0-309-12769-1.
    This document can be accessed on-line at the URL: http://
www.nap.edu/catalog.php?record_id=12507.
Note 3
    H. Robert Schroeder, ``Electromagnetic Pulse and Its Implications 
for EmComm'', QST magazine, November 2009, pages 38 through 41. [The 
term EmComm refers to emergency communication.]
Note 4
    Petitions to the Federal Communications Commission by Donald J. 
Schellhardt and Nickolaus E. Leggett:
    Docket RM-5528, Request to Consider Requirements for Shielding and 
        Bypassing Civilian Communications Systems from Electromagnetic 
        Pulse (EMP) Effects.
    Docket RM-10330, Amendment of the Commission's Rules to Shield 
        Electronics Equipment Against Acts of War or Terrorism 
        Involving Hostile Use of Electromagnetic Pulse (EMP).
Note 5
    Daniel N. Baker and James L. Green, ``The Perfect Solar 
Superstorm'', Sky & Telescope, February 2011, Vol. 121 No. 2, Pages 28-
34.
Note 6
    Publications Dealing with the Protection of Civil Equipment and 
Systems from the Effects of HEMP and HPEM--Issued by the International 
Electrotechnical Commission (IEC) SC 77C.
Note 7
    Mark Clayton, ``Is US Ready for a `Solar Tsunami'? ``The Christian 
Science Monitor, June 27, 2011, Page 20.
Note 8
    H.R. 668, Secure High-voltage Infrastructure for Electricity from 
Lethal Damage Act (SHIELD Act). This bill was introduced on February 
11, 2011. This bill addresses the subjects of solar geomagnetic storms 
and electromagnetic pulse (EMP) impacting the electric power industry.

    Mr. Lungren. We are pleased to have several panels of 
distinguished witnesses before us today. The sole witness of 
our first panel is Congressman Trent Franks. He represents 
Arizona's second Congressional district, serves on the Armed 
Services Committee and the Judiciary Committee, where he 
currently chairs the Constitutional Law Subcommittee. In 
addition, Congressman Franks serves as the co-chair of the 
Congressional EMP Caucus, and has studied this issue for 
several years.
    The Chairman now recognizes Congressman Franks for his 
statement. As a witness, you know our routine here--5 minutes 
and your full written statement will be included in the record.

 STATEMENT OF HON. TRENT FRANKS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Franks. Well, thank you, Mr. Chairman. Good morning to 
you, sir. Good morning to Representative Clarke and the other 
Members of the committee. I am especially grateful to be here 
before you all.
    Mr. Chairman, I would suggest to you that I am critically 
grateful to you for your knowledge and for your commitment to 
this issue. Your opening statement leaves little to add, but I 
will do my best.
    The reality of the potential devastating effects of 
sufficiently intense electromagnetic pulse on the electronic 
systems and sources of many of our critical defense and 
National security components is well-established, Mr. Chairman.
    As a Nation, we have spent billions of dollars over the 
years hardening our nuclear triad, our missile defense 
capabilities, and numerous other critical elements of our 
National security apparatus against the effects of 
electromagnetic pulse, particularly the type that might be 
generated by a high-altitude nuclear warhead detonation over 
our country by one of America's enemies.
    However, our civilian grid, which the Defense Department 
relies upon for nearly 99 percent of its electricity needs, is 
completely vulnerable to the same kind of danger. This 
constitutes an invitation, in my opinion, on the part of 
certain enemies of the United States to use the asymmetric 
capability of EMP against us. There is now evidence that such 
strategies are being considered by certain of those enemies.
    We recently witnessed, as you said, Mr. Chairman, the chaos 
that attends a prolonged power outage when the derecho storm 
impacted the District of Columbia and the surrounding area. Our 
sick and elderly suffered without air conditioning. Grocery 
stores were unable to keep food fresh. Gas lines grew. 
Thankfully, the derecho had only a regional and limited impact.
    In 2004 and 2008, the EMP Commission testified before the 
Armed Services Committee, of which I am a member, that the U.S. 
society and economy are so critically dependent upon the 
availability of electricity that a significant collapse of our 
grid precipitated by a major natural or manmade EMP event could 
result in catastrophic civilian casualties. This conclusion is 
echoed by separate reports recently compiled by the DOD, DHS, 
DOE, NAS, along with various other agencies and independent 
researchers.
    Now I am heartened, Mr. Chairman, by the efforts of DHS to 
address the vulnerabilities EMP poses to our grid, including 
the recovery transformer and resilient electric grid projects. 
However, while these projects are well-intentioned and a major 
positive step in the right direction, they do not go far enough 
to adequately protect our grid and our Nation against a 
catastrophic, continental-wide EMP event.
    Our first priority should always be National security. To 
that end, I have introduced H.R. 668, the Shield Act, which 
among other things, requires automated hardware-based 
solutions, rather than relying upon procedural safety measures 
alone to protect our Nation's major transformers from a 
cascading, destructive effect catalyzed by a major EMP event.
    According to solar weather experts, there is only a 20- to 
30-minute warning from the time we can actually predict a solar 
storm may affect us significantly to the time that it actually 
does. This is not enough time to implement procedures that will 
adequately protect the grid. Furthermore, these predictions are 
only accurate one out of three times. This places a crushing 
dilemma on industry who must decide whether or not to heed the 
warning with the knowledge that a wrong decision, either way, 
could result in the loss of thousands or even perhaps millions 
of lives and massive legal ramifications beyond expression.
    Additionally, while there are those certainly who believe 
that the likelihood of terrorists or rogue nations obtaining 
nuclear weapons and using them in an EMP attack is remote, the 
recent events of the Arab Spring, which our intelligence 
apparatus did not foresee, show us that regimes can change very 
quickly. Iran's increasingly obvious efforts to gain nuclear 
weapons should serve as a grave and urgent warning to all of 
us.
    Thankfully, Mr. Chairman and Members, there is a moment in 
the life of every problem, when it is big enough to be seen by 
reasonable people and still small enough to be solved or 
addressed. You and I live in that moment when there still may 
be time for the free world to address and mitigate the 
vulnerability that naturally occurring or weaponized EMP 
represents to the mechanisms of our civilization.
    Your actions today to protect America may gain you no fame 
or fanfare in the annals of history. However, it may happen in 
your lifetime that natural, manmade, or other types of EMP may 
have an event so large and have an effect so small that no one 
but a few will recognize that was averted. For the sake of our 
children and future generations, I pray it happens exactly that 
way.
    I thank you, Mr. Chairman. God bless you all for hearing 
this. I welcome Ms. Clarke. Thank you, sir.
    [The statement of Mr. Franks follows:]
              Prepared Statement of Honorable Trent Franks
    Good morning Chairman Lungren, Ranking Member Clarke, and the rest 
of my fellow Members on the committee. I believe the subject of this 
hearing is one of profound implication and importance to Western 
civilization, and consequently I hope the Members will feel inclined to 
read my written testimony--and I thank you for allowing me to testify 
here today.
    In our technological advancement, we have now captured the electron 
and transported its utility into nearly every business, home, and 
industrial endeavor throughout the civilized world. In so doing, we 
have advanced our standard of living and productivity beyond dreams. 
But we have also grown profoundly dependent upon electricity and its 
many accoutrements. In keeping with one of humanity's most reliable 
hallmarks, we now find among our greatest strengths an unsettling 
vulnerability . . . EMP . . . Electromagnetic Pulse.
    Catalyzed by a major solar storm, a high-altitude nuclear blast, or 
a non-nuclear, device-induced Intentional Electromagnetic Interference, 
this invisible force of ionized particles has the capability to 
overwhelm and destroy our present electrical power grids and electrical 
equipment, including electronic communication networks, radio 
equipment, integrated circuits, and computers.
    The reality of the potentially devastating effects of sufficiently 
intense electromagnetic pulse on the electronic systems/sources of many 
of our critical defense and National security components is well-
established, and beyond dispute. We as a Nation have spent billions of 
dollars over the years hardening our nuclear triad, our missile-defense 
capabilities, and numerous other critical elements of our National 
security apparatus against the effects of electromagnetic pulse, 
particularly the type of electromagnetic pulse that might be generated 
against us by an enemy. However, our civilian grid, which the Defense 
Department relies upon for nearly 99% of its electricity needs, is 
completely vulnerable to the same kind of danger. This constitutes an 
invitation on the part of certain enemies of the United States to use 
the asymmetric capability of an EMP weapon against us, and there is now 
evidence that such strategy is being considered by certain of those 
enemies.
    The effects of geomagnetic storms and electromagnetic pulses on 
electric infrastructure are well-documented, with nearly every space 
weather and EMP expert recognizing the dramatic disruptions and 
cataclysmic collapses these pulses can bring to electric grids. We all 
recently witnessed the chaos that ensues a prolonged power outage when 
the derecho storm impacted the District of Columbia. Sick and elderly 
suffered without air conditioning, grocery stores labored to keep food 
fresh, and gas lines grew. Thankfully, the derecho was only regional in 
its impact and limited in its effects.
    In 2004 and 2008 the EMP Commission testified before The Armed 
Services Committee, of which I am a member, that the U.S. society and 
economy are so critically dependent upon the availability of 
electricity that a significant collapse of the grid, precipitated by a 
major natural or man-made EMP event, could result in catastrophic 
civilian casualties. This conclusion is echoed by separate reports 
recently compiled by the DOD, DHS, DOE, NAS, along with various other 
Government agencies and independent researchers. All came to very 
similar conclusions. The sobering reality is that this vulnerability, 
if left unaddressed, could have grave, societal-altering consequences.
    I am heartened by the efforts of DHS to address the vulnerabilities 
EMP poses to our grid, including the Recovery Transformer and Resilient 
Electric Grid Projects. However, while these projects are well-
intentioned and a positive step forward, they do not go far enough to 
adequately protect our grid and our Nation against a catastrophic, 
continental-wide EMP event.
    Like many of you, I believe Federal regulation should be very 
limited. Our first National security priority in this instance is to 
protect our major transformers from cascading destruction. To that end, 
I have introduced the SHIELD Act which, among other things, requires 
automated hardware-based solutions rather than procedural safety 
measures alone. And the SHIELD Act does not contain cybersecurity 
provisions, leaving the conflicting approaches to that extremely 
important issue, among members of the Senate in particular, to be 
debated in a separate bill.
    Automated hardware is particularly important when one considers the 
shortcomings of procedural safety measures alone in response to an EMP 
event. According to solar weather experts, there is only 20-30 minutes' 
warning from the time we predict a solar storm may affect us to the 
time it actually does. This is simply not enough time to implement 
procedures that will adequately protect the grid. Furthermore, these 
predictions are only accurate one out of three times. This places a 
crushing dilemma on industry, who must decide whether or not to heed 
the warning with the knowledge that a wrong decision either way could 
result in the loss of thousands or even millions of lives and massive 
legal ramifications beyond expression.
    Mr. Chairman, the phenomenon of natural and man-made 
electromagnetic pulse is not a new one.
    In 1859, English Astronomer Richard Carrington discovered the cause 
of natural EMP when he identified and chronicled a major geomagnetic 
solar storm which brilliantly intensified the Northern lights and 
caused the telegraph system, the only major electrical system that 
existed on earth at that time, to go down across the planet. The 
National Academy of Sciences predicts this effect, to a lesser or 
greater degree, will recur globally approximately once every 100 years.
    In 1962, the United States discovered that a high-altitude nuclear 
blast could generate a more localized electromagnetic pulse of the same 
intensity as the Carrington effect. In an upper atmospheric nuclear 
test called Starfish Prime, an EMP occurred and electric lines were 
fused and radios and street lights stopped working in Hawaii nearly 900 
miles away. The residual effects also disabled nearly all major 
satellites systems.
    Because of new understandings of how EMP interacts with the Earth's 
electromagnetic field, and that it is intensified over large land mass, 
we now believe that if a warhead with a nuclear yield of just 100 
kilotons detonated at an altitude of 400 kilometers over America's 
heartland, the resulting damage to our electric grid and infrastructure 
would be catastrophic across most of the continental United States. 
Such a result would be devastating to our electricity, transportation, 
water and food supply, medical care, financial networks, 
telecommunication and broadcasting systems and our infrastructure in 
general. Under such a scenario, both military and productive capability 
would be devastated. The immediate and eventual impact, directly and 
indirectly, on the human population, especially in major cities, is 
unthinkable.
    It should be remembered that EMP was first considered as a military 
weapon during the ``Cold War'' as a means of paralyzing U.S. 
retaliatory forces.
    America's EMP commission began their 70-page executive summary 
describing a one- or two-missile EMP attack as one of the few threats 
which look as if it could defeat the U.S. military.
    Dr. William Graham, the chairman of the EMP Commission, testified 
before the U.S. House Armed Services Committee, and stated:

``EMP is one of a small number of threats that can hold our society at 
risk of catastrophic consequences.

`` . . . A determined adversary can achieve an EMP attack capability 
without having a high level of sophistication. For example, an 
adversary would not have to have long-range ballistic missiles to 
conduct an EMP attack against the United States. Such an attack could 
be launched from a freighter off the U.S. coast using a short- or 
medium-range missile to loft a nuclear warhead to high altitude. 
Terrorists sponsored by a rogue state could potentially execute such an 
attack without revealing their identity.''

    Dr. Graham has said that a major catastrophic EMP attack on the 
United States could cause an estimated 70-90 percent of the our 
Nation's population to become unsustainable.
    It is impossible for me to even wrap my mind around that figure.
    But for terrorists, this is their ultimate goal, and I believe EMP 
is their ultimate asymmetric weapon. In 1988, Osama bin Laden called it 
a religious duty for al-Qaeda to acquire nuclear weapons. U.S. Admiral 
Mike Mullen, the chairman of the Joint Chiefs of Staff, has stated: 
``My worst nightmare is terrorists with nuclear weapons. Not only do I 
know they are trying to get them, but I know they will use them.''
    This is indeed the greatest danger of all. If a rogue state like 
Iran steps over the nuclear threshold, rogue regimes and terrorists the 
world over will have access to these monstrous weapons.
    We do well to remember that Iran, the world's leading sponsor of 
international terrorism, has practiced launching a mobile ballistic 
missile from a vessel in the Caspian Sea. Iran has also tested high-
altitude explosions of the Shahab-III, a test mode consistent with an 
EMP attack, and described the tests as successful. We have also 
discovered an Iranian military journal that included an article 
recommending such a strategy. The article noted that if major Western 
nations do not learn to defend themselves against EMP attacks, they 
will be destroyed.
    Mahmoud Ahmadinejad again made it clear where he stands on Israel 
when he declared, ``[Israel] is about to die and will soon be erased 
from the geographical scene.''
    Jewish author, Primo Levi, was once asked what he had learned from 
the Holocaust. He replied, ``When a man with a gun says he's going to 
kill you--believe him.''
    At this moment, Iranian President Mahmoud Ahmadinejad, a man who, 
in the same breath, both denies the Holocaust ever occurred, and then 
threatens to make it happen again, is arrogantly seeking a gun with 
which he vows to wipe the state of Israel off the map.
    He has also said: ``The time for the fall of the satanic power of 
the United States has come and the countdown to the annihilation of the 
emperor of power and wealth has started.'' He has said point-blank, 
``The wave of the Islamist revolution will soon reach the entire 
world.''
    What a happy cheerful, fellow . . . 
    Unfortunately, he talks like a man who knows something the rest of 
us don't.
    It is not enough, to casually dismiss his fanatical rhetoric. When 
analyzing the nature of any threat, we must always seriously assess two 
things: A potential enemy's intent and his corresponding capacity to 
carry out any such intent.
    Mahmoud Ahmadinejad and his regime have stated very clearly their 
intent to see Israel wiped off the face of the earth and America and 
the West brought to their knees. Nuclear warheads could give them the 
capacity to effectively proceed in that endeavor; and to ignore the 
incontrovertible fact that Iran is rapidly progressing toward a nuclear 
weapons capability, is to resign ourselves and our children to live and 
walk in the shadow of nuclear terrorism.
    Mr. Chairman and Members, these things should not surprise us. We 
are now 65 years into the nuclear age, and the ominous intersection of 
jihadist terrorism and nuclear proliferation has been inexorably and 
relentlessly rolling toward America and the free world for decades. 
But, when we add the dimension of asymmetric electromagnetic pulse 
attacks to that equation, we face a menace that may represent the 
gravest short-term threat to the peace and security of the human family 
in the world today.
    Certainly there are those who believe that the likelihood of 
terrorists or rogue states obtaining nuclear weapons and using them in 
an EMP attack is remote. It may be a reasonable conclusion for the 
moment. But the recent events of the Arab Spring, which our 
intelligence apparatus did not foresee, show us that regimes can change 
very quickly. Is a regime change in Pakistan possible? Will there be 
blowback from our involvement in Libya? What about the current crisis 
in Syria? Will North Korea ever supply or sell it nuclear technology or 
warheads to terrorists? Will Iran develop or obtain nuclear weapons? 
Iran's increasingly obvious efforts to gain nuclear weapons should 
serve as a grave and urgent warning to all of us.
    If terrorists or rogue states do acquire nuclear weapons, hardening 
our electric grid would become a desperate priority for our Nation. 
However, that process will take several years, while a regime change 
takes only weeks and a missile launch only minutes. The fact that we 
are now 100% vulnerable means we should start securing our electric 
infrastructure now. Indeed, by reducing our vulnerability we may reduce 
the likelihood that terrorists or rogue states would attempt such an 
attack.
    We should always remember that 7 decades ago, another murderous 
ideology arose in the world. The dark shadow of the Nazi swastika fell 
first upon the Jewish people of Germany. And because the world did not 
heed the warnings of men like Winston Churchill and respond to that 
evil in time, it began to spread across Europe until it lit the fires 
of World War II's hell on earth which saw atomic bombs fall upon cities 
and over 50 million people dead worldwide.
    History has repeatedly shown humanity to be susceptible to 
malignant dangers that approach inaudibly and nestle among us with 
innocuous countenance until a day of sudden calamity finds us empty-
handed, broken-hearted, and without excuse.
    Thankfully, Mr. Chairman and Members, there is a moment in the life 
of nearly every problem when it is big enough to be seen by reasonable 
people and still small enough to be solved. You and I live in that 
moment when there still may be time for the free world to address and 
mitigate the vulnerability that naturally occurring or weaponized EMP 
represents to the mechanisms of our civilization.
    The challenge to ultimately and fully protect our peoples and 
nations from all of the various perils of natural or man-made 
electromagnetic pulse will be long and lingering. But the time to 
protect our Nation from the most devastating scenario is now; the 
threat is real, and the implications are sobering.
    America's Brink Lindsey said it it this way: ``Here is the grim 
truth: We are only one act of madness away from a social cataclysm 
unlike anything our country has ever known. After a handful of such 
acts, who knows what kind of civilizational breakdown might be in 
store?''
    Mr. Chairman and Members of the committee, the first purpose of any 
government or its leaders is to protect the lives and security of its 
innocent citizens. The failure of this responsibility renders all 
others meaningless.
    Your actions today to protect America may gain you no fame or 
fanfare in the annals of history. However, it may happen in your 
lifetime that a natural or man-made EMP event so big has an effect so 
small that no one but a few will recognize the disaster that was 
averted. For the sake of our children and future generations, I pray it 
happens exactly that way.
    Thank you and God bless all of you.

    Mr. Lungren. Thank you very much, Congressman Franks. I 
appreciate the leadership that you have shown in this 
particular area.
    There are some that have suggested that EMP attack or an 
EMP event, if naturally caused, is not that serious--that there 
is sort of an alarmist tone to statements to the public that 
this is an issue about which they should be concerned. How do 
you respond to that?
    Mr. Franks. Well, first, in the sincerest way that I can 
express to you, I pray they are correct. I hope that there is 
just some overreaction on the part of all of us. But I will say 
to you, if that is true, then your seminal point made earlier 
that the military is spending a great deal of unnecessary money 
hardening our military apparatus should be considered 
carefully.
    There is no question about the reality of the effects of 
EMP if there is a sufficient surge. We have got a great deal of 
research in that regard and to ignore that would be to ignore 
some of the major reports not only by the EMP Commission, but 
the Department of Defense. There are somewhere between six and 
nine major reports now in Government--and I will certainly 
refer you to the experts that will follow me that testify 
clearly to the danger.
    The challenge before us is to ascertain exactly what that 
danger is. We suggest to you that we don't know fully what it 
is. But something that has the potential to have this kind of 
catastrophic effect should be considered carefully.
    Mr. Lungren. Where is the failure? Is the failure with the 
Congress? Is the failure with the Executive branch? Is the 
failure with critical infrastructure owners? If this is as 
serious as you suggest, as some of these reports suggest, the 
lack of attention to it is something that bewilders me.
    I mean you have been involved in a lot of issues on the 
Armed Services Committee and so forth, and I am trying to 
figure out what is it that is lacking on this issue that does 
not garner the attention of the American people? In other 
words, is there a lack of consensus about the threat? I mean is 
there a serious question that--from your standpoint--is there a 
serious question about whether this is a serious issue?
    Mr. Franks. No, I think, Mr. Chairman, that is probably the 
most important question that we have to ask. I would only 
suggest to you that when the EMP Commission came to the Armed 
Services Committee in 2004, I had been aware of EMP. My 
background is engineering. I had been aware of it, but I 
thought it was like something that could be catastrophic, but 
the chances of it happening were so remote. I just didn't see 
that happening.
    The testimony was that other nations--there were five 
nations at the time that were developing this as an offensive 
capability. Certainly, the Soviet Union had a major EMP 
component in their nuclear strategy.
    So there is a dichotomy here that I don't exactly 
understand in the military, among our National security 
experts, there is clear consensus of the danger this 
represents. However, when you go over into the civilian areas, 
it seemed like there is a general, sort of a lackadaisical, 
kind of a----
    Mr. Lungren. Let me ask you about that, because I have 
found most people who are involved in critical infrastructure 
in the private sector are serious-minded folks. They do 
recognize the value of their assets. In most cases, when I am 
dealing with them on issues, I find them to be forward-thinking 
and to actually try and protect those assets. They articulate 
that in a way so that they can justify certain capital 
investments to their shareholders or their ratepayers.
    Well, let me ask you this: Do you find the attention to the 
protection of their assets that you believe to be necessary, 
and if not, why as the owners and protectors of those assets, 
is this not taken more seriously?
    Mr. Franks. I think that is a good question. It has been 
something that has bewildered me to a degree. It seemed just a 
few years ago, as this became more well known that there was a 
more serious--or at least a more recognizable response. It 
seemed like in the recent just past last year, there has been 
sort of a pushback in parts of industry.
    My concern is if they have credible, scientific bases for 
being unconcerned or not addressing it as vigorously as some of 
us think that it should be, then I would adjure them to bring 
that testimony and that evidence to the rest of us. Because I 
can suggest to you that I haven't seen it.
    It may be that there is some concern on the part of major 
manufacturers of these large components, transformers and 
others, that are somewhat out of professional pride. That they 
either don't want to recognize the danger or somehow they feel 
like that there would be some requirement of reengineering of 
some of these major components if they did.
    But I would suggest that the potential liability here is 
off the charts. The fix here--and this would probably be one of 
the more important points to point out--the fix here is fairly 
simple, at least in terms of protecting our electric-producing 
grid--not all the elements that are connected to it. That is a 
huge issue. But at least to be able to keep the lights on--
electricity coming--that is a fairly easy fix. I think this 
country needs to look at it.
    Mr. Lungren. Thank you very much.
    I recognize the Ranking Member Ms. Clarke for 5 minutes.
    Ms. Clarke. Let me thank you, Mr. Chairman.
    Thank you, Mr. Franks, for your testimony before our 
subcommittee today. I know how passionate you are about this. 
We share that passion. You are helping to write the road map 
for addressing the EMP threat speaks to your commitment.
    I wanted to also welcome Dr. Beck, who as a former staffer, 
a staff director for this subcommittee and has also developed 
an expertise on this matter. So I want to welcome you back, Dr. 
Beck.
    I believe it is important that we find the building blocks 
for the partnership of which Councilman, excuse me, Congressman 
Franks has articulated this morning. We must bring improvements 
to the security and reliability of one of our most important 
critical infrastructures, our electric grid.
    I understand that our very reliance on the infrastructure 
that makes it important to anticipate the worst. There are many 
scenarios that we should be concerned about. We are still 
learning about the significant threat that could come in the 
form of a natural or manmade electromagnetic pulse and have 
more to learn about the effects of the EMP and geomagnetic 
disturbances to the grid as well.
    Over the past few years, I have followed with interest, Mr. 
Chairman, the secure grid exercises that the National Defense 
University has held at Fort McNair. These series of tabletop 
exercises in the U.S. electric grid security have focused on 
the effects of a major geomagnetic storm on the Nation's 
electrical infrastructure. With the 12-year peak in solar 
activity approaching in 2012-2013, there is considerable upturn 
in interest from Government agencies, including the White House 
and Congress in understanding the potential impacts if a 
geomagnetic disturbance event should occur.
    Although this is a low-probability event, the consequences 
of an extended and widespread power loss across portions of the 
country would constitute a serious National emergency. To me, 
one of the largest barriers to Government agency disaster 
response is cross-agency coordination, the role of authority--
crucial elements made more difficult when discussing privately-
owned National electric grid. Ultimately, the secure grid 
exercises and other policy discussions work to identify 
preparedness gaps in plans to manage the challenges associated 
with extended power outages and add urgency to existing efforts 
to identify technology solutions to protect the U.S. grid.
    This hearing serves to highlight areas where the United 
States and its allies are analyzing the risk that a severe 
geomagnetic disturbance would present, and help us look for 
international approaches to effectively react to those risks. 
While severe solar storms that create geomagnetic disturbances 
cannot be prevented, there are tools and opportunities to 
mitigate and protect the grid from such risks of such an event.
    My colleagues on the Homeland Security Committee and I have 
spent nearly 3 years identifying and reviewing security 
protections that are in place to mitigate the effects of any 
intentional or unintentional attack on the electric system. Our 
goal is to determine whether appropriate protections are in 
place that would mitigate catastrophic incidents on the grid.
    Our review has required extensive discussions and review 
with the private sector, which owns, operates, and secures the 
grid. The private sector develops its own security standards 
and also oversees compliance with these standards. In short, 
the private sector has the responsibility, as has been stated 
by Congressman Franks, for securing the grid from 
electromagnetic events and cyber attacks.
    I am very pleased to see the statement for the record 
submitted by the North American Reliability Corporation. These 
are the folks who are the closest to the electric grid and they 
manage an almost impossibly complex flow of energy, not just 
our 330-plus million people, but also the flow of energy across 
our borders every day.
    Finally, the U.S. Congress has acted. In June 2010, the 
Grid Act passed the House of Representatives unanimously. 
Unfortunately, it stalled in the Senate and did not become law. 
The bill would have granted the Federal Energy Regulatory 
Commission expanded authorities to oversee electromagnetic and 
cyber protections.
    This Congress, Congressman Franks, has introduced the 
version of the bill now called the Shield Act, which is similar 
to the Grid Act, but focuses only on the electromagnetic threat 
component, without the cybersecurity component. I am a 
cosponsor of the bill. It is our hope that during the next 
Congress, we will get this bill through both houses and to the 
President's desk.
    So I just wanted to put that on the record. Thank you, 
again, Congressman Franks, for your vigilance. I think this is 
a very crucial concern. As we look at the modernity of our 
civil society, we must be concerned about unintended 
consequences from what may be solar, geomagnetic, or 
intentional threat to our electric grid.
    I yield back, Mr. Chairman.
    Mr. Franks. Mr. Chairman, if I could just respond to--Ms. 
Clarke has demonstrated tremendous commitment in this area and 
has done some amazing things. I appreciate her work so much.
    I would just leave the committee with this thought. As we 
have challenged those who don't think or are not significantly 
convinced that this is a threat, weigh on one hand the money 
that we spend in the military to defend against this threat and 
all of the reports that are ubiquitous throughout our 
Government. On the other hand, let us ask the industry to show 
us why this is not a threat.
    We, as a human family, have been historically, you know, 
clear back in the days of London, when 90 percent of London 
burned, we knew about fire then, but somehow we just kind of 
didn't respond to it until something critically significant 
happened.
    So I would encourage the committee, just get the facts. 
Because if it is not a problem, then we can all go home. It 
is----
    Mr. Lungren. Mr. Long, do you have any questions for our 
witness?
    Mr. Long. Thank you, Mr. Chairman.
    Congressman Franks, the solar flare you spoke about 
earlier--you said solar flares--if I remember what you said 
right--sometimes you will have 20-30 minutes' notice before 
solar flare with an accuracy rating of one out of three times, 
I think you said.
    Mr. Franks. Go ahead, please.
    Mr. Long. Go ahead.
    Mr. Franks. Uh, let me try to expand that a little bit. We 
have satellites that give us some indication much sooner than 
that, about 24 hours in advance sometimes that there is a major 
geo--like a CME, which is a chrome mass ejection or it is an 
effective solar flare--that creates a geomagnetic disturbance, 
which is inevitable. It happens about every 100-105 years, 
sometimes even more frequently. But the major ones are called 
the Carrington Effect, which was named after a gentleman that 
discovered or essentially documented the first major clear 
demonstration of that type of solar storm.
    We have in this society about 24 hours to say, okay, we 
have one coming. But we don't know if it is going to be severe 
enough to do any damage until about 30 minutes out. Now the 
problem is, even then, when we say, okay, we have 30 minutes 
and this looks like one that could really be serious. It looks 
like our earth polarity--is just right. All of that, as it 
were, the stars are lining up and this could be really bad. But 
even then, only one out of three times is that correct.
    So as an operator, do you shut down the grid to protect it 
and take a chance on risking human life, or do you leave it up 
and take a chance on it being damaged and risk even more human 
life?
    Mr. Long. My question was the 20- to 30-minute warning, 
what could be done in that 20-30 minutes. You say shutting it 
down, I suppose. But what if we had 20-30 days or 20-30 months 
for that warning? Let us pretend we had 20-30 months. What 
steps can be taken to mitigate this? Are there things that can 
be done?
    You gotta keep in mind that most of these--a lot of the 
infrastructure is privately held, so has there been studies to 
show what will mitigate this? Are there things--back on the 
farm, every house had a lightning rod on it to mitigate the 
lightning to keep it from burning the house down. Are there 
things to mitigate this if we had the sufficient amount of 
time?
    Mr. Franks. You know, you point out probably the perfect 
example and that is lightning--that lightning is a type of 
EMP--it is E2. The lightning rods redirected the force or the 
rush of electric energy into the ground, where it wouldn't 
damage anything. There are what we call nuclear phase blockers 
that can go before these major transformers that would 
interrupt the electric flow. If there was a surge, that it 
would happen instantaneously. If there was a surge, it would 
keep these transformers from burning themselves up. That is one 
way to mitigate it.
    Mr. Long. When you say can go before it, what do you mean?
    Mr. Franks. These neutral face blockers are, prior to any 
charge going into the transformer, coming out of it----
    Mr. Long. So this is hardware that is actually hard laid.
    Mr. Franks. That is correct.
    Mr. Long. Okay, that is what I----
    Mr. Franks. That means if there is no electromagnetic 
pulse, then no one has to shut something down just in case. But 
if there is, then it automatically says no, we are going to 
interrupt the flow to that transformer so that it won't add to 
its load that would ultimately cause it to burn up. If it does, 
those transformers are difficult to replace.
    The challenge, of course, as far as having sufficient 
warning, is that we would have to be able to predict when there 
is a major solar flare--major coronal mass ejection. We haven't 
really found the science to do that yet. So even----
    Mr. Long. Well, if you had it installed ahead of time, you 
wouldn't need to predict, right?
    Mr. Franks. Correct. Correct. But I am saying right now, if 
you base it on procedures alone, where you tell the operators 
there is a big one coming. Shut down manually. At best, they 
are going to have 24 hours general warning. Again, more often, 
a 30-minute warning is just not enough time.
    Mr. Long. Is the effect the same whether it is an act of 
God, whether it is a solar flare or solar storm that you called 
the other one.
    Mr. Franks. Well, the act of God as it were----
    Mr. Long. Well, yes, but my question is, is it the act of 
God, solar storm, solar flare--is the ramification the same as 
a man-made act, such as the high-altitude electromagnetic pulse 
that a nuclear device set off at 100 kilometers above the earth 
would?
    Mr. Franks. It is a little bit technical, but I will answer 
your question. The solar storm or the geomagnetic disturbance 
is primarily E3. It is a slower and it is more damaging to 
transformers and the heavy equipment and things of that nature. 
Whereas, it doesn't have the E1 and E2.
    Whereas, the lightning--I mean, excuse me--the nuclear-
generated electromagnetic pulse, where a nuclear warhead 
creates a gamma ray emission which interacts with the 
atmosphere and creates a rush of ionized particles toward the 
earth, it happens to create all three--E1, E2, and E3. So it 
can damage electrical components of, you know, small 
transistors, scatter control systems--these very delicate 
systems that are sort of the hallmark of our, you know, our 
electronic advancement in this society.
    So the answer--the effect is, with a nuclear generated EMP, 
the effect is--covers a lot more electronic components. But 
with the geomagnetic----
    Mr. Long. Is the fix the same?
    Mr. Franks. What is that?
    Mr. Long. Is the fix the same? You said earlier that the 
fix is simple. Is the fix the same on either----
    Mr. Franks. Yes, if the components that are destroyed--the 
fix is the same, but the GMD affects mostly----
    Mr. Long. I am talking about the prevention fix, I guess, 
not--maybe I misunderstood what you meant by fix.
    Mr. Franks. Yes, the only thing that the Shield Act--well, 
I won't say the only thing--but the primary thing that the 
Shield Act addresses is to make sure that our major 
transformers are 750 KV corridor are not destroyed, which means 
that we would be in a catastrophic civilizational challenge 
where we wouldn't have electricity and wouldn't be able to 
perhaps restore it for months or even years. That is the worst-
case scenario. The Shield is designed to prevent that.
    Some of these ancillary damages on cell phones, radios, 
things like that, it is difficult to mitigate against that in a 
short-term fix. We have to harden as we go. But my contention 
is if we take those components as we rebuild them and replace 
them and harden them against EMP, which we can do that. It adds 
about 10 percent to the cost of doing that. Then we can 
eventually get past this vulnerability. But the main big 
vulnerability that we have right now is the potential damage to 
our major transformers that could be caused by either a high-
altitude electromagnetic pulse or GMD.
    Mr. Lungren. Time.
    Mr. Long. But that is preventable. I am way past my time. I 
yield back.
    Mr. Lungren. Well, if you are way past your time, how can 
you yield back?
    [Laughter.]
    Mr. Lungren. The gentlelady from California is recognized 
for approximately 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman. I have no 
questions for the Congressman. Thank you for your testimony.
    Mr. Lungren. Mr. Richmond.
    Mr. Richmond. I don't have many, but the thing that I guess 
just draws my attention is the Congressman's conversation about 
the solar storm. I know that it is termed a 1-in-100-year 
event. But I am from New Orleans, where we get 1-in-100-year 
events. So I would like to be----
    Just your feeling in your opinion, as someone who has 
really taken the lead on this--I mean, how prepared are we for 
that 1-in-100-year event right now? What things can we do 
quickly or what do we need to put in place so that we start 
developing either criteria, building codes, or codes for or 
standards for the utility companies to make sure that we don't 
have the potential to have people out of power for years?
    Mr. Franks. Well, let me try if I could to address the 
worst-case scenario, which I consider openly to be remote. But 
it is possible. It is that 100-year event you talk about.
    On the military side, in terms of our National security, 
being able to fight back, as it were, our major military 
apparatus is hardened effectively and we are prepared. The 
problem is on the civilian side, we are almost completely 
unprepared. It is just an incredible antithesis here. Our 
military is critically dependent upon the civilian grid for its 
electricity needs--about 99 percent--and is, according to 
military sources, their own military mission becomes 
compromised without that source of electricity.
    So our focus needs to--you know, our missile defense 
systems are able actually to fight through a major EMP 
environment. It can have major electromagnetic pulse energy 
everywhere and they are able to fight through it, because they 
understand that that is exactly the type of environment they 
would be in, in terms of a nuclear war.
    But the civilian grid right now remains unprotected. In the 
conferences that Ms. Yvette Clarke and I have attended on 
occasion, the Defense Department has testified that they are in 
a sort of a no-win situation, because they depend on the 
electric grid, but they have no control over how it should be 
protected. I am fine with that.
    The Shield Act allows the private sector to come up with 
the best solution; and if that is good enough, great. I am the 
last one that wants to regulate any industry, but I am the 
first one that wants to pay attention to our National security. 
If we have standards that says we must mitigate or protect 
against this, which we can do at minimal costs--the neutral 
face blockers that I had mentioned to the other gentlemen 
actually allow the grid to be run at a higher capacity, which 
more than pays for what is a relatively minimal cost. I mean, 
it is in the noise of the cost of our daily generation costs.
    So the bottom line is, we are not prepared in our civilian 
grid. We are very prepared to be able to continue to fight a 
war. But I wonder at some point if we have a significant enough 
impact, how much, you know, are we really protecting the 
country.
    Finally, I would just say that, you know, the worst-case 
scenario is so bad that rather than preparing for it, we must 
prevent it from ever occurring.
    Thank you. I yield back.
    Mr. Lungren. The gentleman yields back. Thank you, 
Congressman Franks, for your testimony and for your leadership 
on this issue. We appreciate it very much.
    Mr. Franks. Thank you. Thank all of you.
    Mr. Lungren. They have it written for me to say, Panel 1 is 
dismissed. You are Panel 1.
    Mr. Franks. All right. Thank you, sir. Thank you all very 
much.
    Mr. Lungren. Thank you. Now, I would ask the clerks to 
prepare for our second panel.
    We have a very distinguished second panel. I thank you all 
for being here.
    Mr. Joseph McClelland is the director of the Office of 
Electric Reliability at the Federal Energy Regulatory 
Commission, a position to which he was first appointed in 
September 2007. Mr. McClelland came to the Commission with more 
than 20 years of experience in the electric utility industry, 
holds a Bachelor of Science degree in electrical engineering 
from Penn State.
    Mr. Brandon Wales is the director of the Homeland 
Infrastructure Threat and Risk Analysis Center at the 
Department of Homeland Security. In this role, he leads a 
robust all-hazards analytic resource for public and private-
sector partners, covering the full array of risks and 
challenges facing the infrastructure community. Prior to 
joining the Department, Mr. Wales served as the principle 
National security advisor to the United States Senator Jon Kyl 
and was a senior associate at the Washington-based foreign 
policy and National security think tank.
    Mr. Michael Aimone is director of Business Enterprise 
Integration on Intergovernmental Personnel Assignment--Personal 
Assignment in the Office of the Secretary of Defense's 
Installations and Environment Directorate. That is a long term. 
We will just say you are an expert. How is that?
    Mr. Aimone oversees the efforts by the deputy under 
secretary to modernize and integrate real property, energy, and 
environmental business information technology systems for the 
Department of Defense. Mr. Aimone serves as the U.S. Air Force 
and in the U.S. Air Force and the U.S. Air Force Reserves for 
nearly 30 years, and is widely known as one of the country's 
industry leaders on energy, security, and sustainable 
operations.
    We thank you for all being here. Your written submissions 
are made a part of the record. We would ask you to attempt to 
summarize your testimony within 5 minutes after which time we 
will have the panel subjected to questions by our Members of 
the subcommittee. So if you would go in the order in which I 
have introduced you.

 STATEMENT OF JOSEPH MC CLELLAND, DIRECTOR, OFFICE OF ELECTRIC 
       RELIABILITY, FEDERAL ENERGY REGULATORY COMMISSION

    Mr. McClelland. Good morning, Mr. Chairman, Ranking Member, 
and Members of the subcommittee. Thank you for the privilege to 
appear before you today to discuss the security of the power 
grid. My name is Joe McClelland. I am the director of the 
Office of Electric Reliability at the Federal Energy Regulatory 
Commission. I am here today as a Commission staff witness. My 
remarks do not necessarily represent the views of the 
Commission or any individual commissioner.
    In the Energy Policy Act of 2005, Congress entrusted the 
Commission with a major new responsibility to oversee mandatory 
enforceable reliability standards for the Nation's bulk power 
system. This authority is in section 215 of the Federal Power 
Act. It is important to note that FERC's jurisdiction and 
reliability authority under section 15 is limited to, ``the 
bulk power system,'' as defined in the FPA, which excludes 
Alaska and Hawaii, as well as the local distribution systems. 
Under this section 215 authority, FERC cannot author or modify 
reliability standards. We must depend upon an electrical 
reliability organization or ERO to perform this task. The 
Commission selected the North American Electric Reliability 
Corporation, or NERC, as the ERO. The ERO develops and proposes 
reliability standards or modifications for the Commission's 
review, which it can then either remand or approve.
    If the commissioner approves the proposed reliability 
standard, it becomes mandatory enforceable in the United 
States, applying to the users, owners, and operators of the 
bulk power system. If the Commission remands a proposed 
standard, it is sent back to the ERO for further consideration.
    In my view, section 215 of the Federal Power Act provides 
an adequate statutory foundation for the ERO to develop most 
reliability standards for the bulk power system. However, the 
nature of a National security threat by entities intent on 
attacking the United States through vulnerabilities in its 
electric grids stands in stark contrast to other major 
reliability vulnerabilities that have caused regional blackouts 
and reliability failures in the past, such as tree trimming and 
equipment maintenance practices. Widespread disruption of 
electric service can quickly undermine the United States 
Government, its military, and the economy, as well as endanger 
the health and safety of millions of its citizens.
    Given the National security dimension to this threat, there 
may be a need to act quickly to protect the grid, to act in a 
manner where action is mandatory rather than voluntary, and to 
protect certain information from public disclosure.
    While the Commission is considering actions that it can 
take under its current authority, this authority may not be 
sufficient in cases where mandatory action is needed to protect 
the United States from physical threats that endanger our 
Nation's security.
    One example of a physical threat is an electromagnetic 
pulse, or EMP, event. EMP events can be generated from either a 
naturally occurring or manmade causes. In 2001, Congress 
established a commission to assess the threat from EMP. In 
2004, and again in 2008, the Commission issued its reports. 
Among the findings in the reports, was that a single EMP attack 
could seriously degrade or shut down a large part of the 
electric power grid. Depending upon the attack, significant 
parts of the electric infrastructure could be, ``out of service 
for periods measured in months to a year or more.''
    In order to better understand and quantify the effect of 
EMP on the power grid, FERC staff, the Department of Energy, 
and the Department of Homeland Security sponsored a study by 
the Oak Ridge National Laboratory and their subcontractor 
Metatech in 2010. The results of this study support the general 
conclusion of prior studies that EMP events pose substantial 
risk to equipment and operation of the Nation's power grid, and 
under extreme conditions, could result in major long-term 
electrical outages.
    In fact, solar magnetic disturbances are inevitable, with 
only the timing and magnitude subject to variability. The study 
assessed the 1921 solar storm, which has been termed a 1-in-
100-year event and applied it to today's power grid. The study 
concluded that such a storm could damage or destroy in excess 
of 300 bulk power system transformers, interrupting service to 
130 million people, with some outages lasting for a period of 
years.
    In February 2012, the North American Electric Reliability 
Corporation released its interim report, ``Effects of 
Geomagnetic Disturbances on the Bulk Power System.'' In it, 
they concluded that the most likely worst-case scenario system 
impact from a severe geomagnetic disturbance is voltage 
instability and voltage collapse, with limited equipment damage 
and recovery times measured in hours or days.
    On April 30, 2012, the Commission held a technical 
conference to discuss issues related to the reliability of the 
bulk power system, as affected by geomagnetic disturbances. The 
conference explored the risks and impacts from geomagnetically-
induced currents to transformers and other equipment on the 
bulk power system, as well as options for addressing or 
mitigating risks and impacts.
    The Commission is considering the comments filed after the 
conference and what actions it can take under its current 
authority to address National security threats to the 
reliability of our power system from EMP. Although the 
Commission's current authority allows it to require submission 
to the ERO of proposed standards to address the EMP threat to 
the United States, it does not allow the Commission the ability 
to author the standards, thereby limiting its effectiveness. 
These types of threats pose an increasing risk to the power 
grid that serves our Nation. The Commission is therefore 
considering actions that it can take under its current 
authority.
    Any new legislation should address several key concerns, 
including allowing the Federal Government to take action before 
a cyber or physical National security incident has occurred, 
ensuring appropriate confidentiality of sensitive information 
developed under new authority, and allowing cost recovery for 
entities that mitigate vulnerabilities and threats.
    Thank you, again, for the opportunity to testify today. I 
would be happy to answer any questions that you might have.
    [The prepared statement of Mr. McClelland follows:]
                Prepared Statement of Joseph McClelland
                           September 12, 2012
    Mr. Chairman, Ranking Member, and Members of the committee: Thank 
you for this opportunity to appear before you to discuss the security 
of the electric grid. My name is Joseph McClelland. I am the director 
of the Office of Electric Reliability (OER) of the Federal Energy 
Regulatory Commission (FERC or Commission). The Commission's role with 
respect to reliability is to help protect and improve the reliability 
of the Nation's bulk power system through effective regulatory 
oversight as established in the Energy Policy Act of 2005. I am here 
today as a Commission staff witness and my remarks do not necessarily 
represent the views of the Commission or any individual Commissioner.
    The Commission is committed to protecting the reliability of the 
Nation's bulk electric system. The Commission is considering actions 
that it can take under its current authority to address National 
security threats to the reliability of our transmission and power 
system from electromagnetic pulses. These types of threats pose an 
increasing risk to our Nation's electric grid, which undergirds our 
Government and economy and helps ensure the health and welfare of our 
citizens. I will describe how limitations in Federal authority may not 
fully protect the grid against security threats due to electromagnetic 
pulse and summarize the Commission's oversight of the electric grid 
under section 215 of the Federal Power Act.
                               background
    In the Energy Policy Act of 2005 (EPAct 2005), Congress entrusted 
the Commission with a major new responsibility to oversee mandatory, 
enforceable reliability standards for the Nation's bulk power system 
(excluding Alaska and Hawaii). This authority is in section 215 of the 
Federal Power Act. Section 215 requires the Commission to select an 
Electric Reliability Organization (ERO) that is responsible for 
proposing, for Commission review and approval, reliability standards or 
modifications to existing reliability standards to help protect and 
improve the reliability of the Nation's bulk power system. The 
Commission has certified the North American Electric Reliability 
Corporation (NERC) as the ERO. The reliability standards apply to the 
users, owners, and operators of the bulk power system and become 
mandatory in the United States only after Commission approval. The ERO 
also is authorized to impose, after notice and opportunity for a 
hearing, penalties for violations of the reliability standards, subject 
to Commission review and approval. The ERO may delegate certain 
responsibilities to ``Regional Entities,'' subject to Commission 
approval.
    The Commission may approve proposed reliability standards or 
modifications to previously approved standards if it finds them ``just, 
reasonable, not unduly discriminatory or preferential, and in the 
public interest.'' The Commission itself does not have authority to 
author or modify proposed standards. Rather, if the Commission 
disapproves a proposed standard or modification, section 215 requires 
the Commission to remand it to the ERO for further consideration. The 
Commission, upon its own motion or upon complaint, may direct the ERO 
to submit a proposed standard or modification on a specific matter but 
it does not have the authority to modify or author a standard and must 
depend upon the ERO to do so.
Limitations of Section 215 and the Term ``Bulk Power System''
    Currently, the Commission's jurisdiction under section 215 is 
limited to the ``bulk power system,'' as defined in the FPA, and 
therefore excludes Alaska and Hawaii, including any Federal 
installations located therein. It also excludes all local distribution 
facilities, including those facilities connected to defense 
infrastructure. The current interpretation of ``bulk power system'' 
also excludes some transmission, including virtually all of the grid 
facilities in certain large cities such as New York, thus precluding 
Commission action to mitigate cyber or other National security threats 
to reliability that involve such facilities and major population areas. 
The Commission directed NERC to revise its interpretation of the bulk 
power system to eliminate inconsistencies across regions, eliminate the 
ambiguity created by the current discretion in NERC's definition of 
bulk electric system, provide a backstop review to ensure that any 
variations do not compromise reliability, and ensure that facilities 
that could significantly affect reliability are subject to mandatory 
rules. NERC has recently filed a revised definition of the term bulk 
power system, and the Commission has solicited comments on its proposal 
to accept NERC's revised definition. However, it is important to note 
that section 215 of the FPA excludes local distribution facilities from 
the Commission's reliability jurisdiction, so any revised bulk electric 
system definition developed by NERC will still not apply to local 
distribution facilities, including those connected to defense 
infrastructure.
                            the nerc process
    As an initial matter, it is important to recognize how mandatory 
reliability standards are established. Under section 215, reliability 
standards must be developed by the ERO through an open, inclusive, and 
public process. The Commission can direct NERC to develop a reliability 
standard to address a particular reliability matter. However, the NERC 
process typically requires years to develop standards for the 
Commission's review.
    NERC's procedures for developing standards allow extensive 
opportunity for stakeholder comment, are open, and are generally based 
on the procedures of the American National Standards Institute. The 
NERC process is intended to develop consensus on both the need for, and 
the substance of, the proposed standard. Although inclusive, the 
process is relatively slow, open, and unpredictable in its 
responsiveness to the Commission's directives. This process requires 
public disclosure regarding the reason for the proposed standard, the 
manner in which the standard will address the issues, and any 
subsequent comments and resulting modifications in the standards as the 
affected stakeholders review the material and provide comments. NERC-
approved standards are then submitted to the Commission for its review.
    The procedures used by NERC are appropriate for developing and 
approving routine reliability standards. The process allows extensive 
opportunities for industry and public comment. The public nature of the 
reliability standards development process can be a strength of the 
process. However, it can be an impediment when measures or actions need 
to be taken to address threats to National security quickly, 
effectively, and in a manner that protects against the disclosure of 
security-sensitive information. The current procedures used under 
section 215 for the development and approval of reliability standards 
do not provide an effective and timely means of addressing urgent 
National security risks to the bulk power system, particularly in 
emergency situations. Certain circumstances, such as those involving 
National security, may require immediate action, while the reliability 
standard procedures take too long to implement efficient and timely 
corrective steps.
    FERC rules governing review and establishment of reliability 
standards allow the agency to direct the ERO to develop and propose 
reliability standards under an expedited schedule. For example, FERC 
could order the ERO to submit a reliability standard to address a 
reliability vulnerability within 60 days. Also, NERC's rules of 
procedure include a provision to develop a new or modified Reliability 
Standard using an expedited reliability standard development process 
that can be completed within 60 days and which may be further expedited 
by a written finding by the NERC board of trustees that an 
extraordinary and immediate threat exists to bulk power system 
reliability or National security. However, it is not clear NERC could 
meet this schedule in practice. Moreover, faced with a National 
security threat to reliability, there may be a need to act decisively 
in hours or days, rather than weeks, months, or years. That would not 
be feasible even under the expedited process. In the mean time, the 
bulk power system would be left vulnerable to a known National security 
threat. Moreover, existing procedures, including the expedited action 
procedure, could widely publicize both the vulnerability and the 
proposed solution, thus increasing the risk of hostile actions before 
the appropriate solutions are implemented.
    In addition, a reliability standard submitted to the Commission by 
NERC may not be sufficient to address the identified vulnerability or 
threat. Since FERC may not directly modify a proposed reliability 
standard under section 215 and must either approve or remand it, FERC 
would have the choice of approving an inadequate standard and directing 
changes, which reinitiates a process that can take years, or rejecting 
the standard altogether. Under either approach, the bulk power system 
would remain vulnerable for a prolonged period.
    Finally, the open and inclusive process required for standards 
development is not consistent with the need to protect security-
sensitive information. For instance, a formal request for a new 
standard would normally detail the need for the standard as well as the 
proposed mitigation to address the issue, and the NERC-approved version 
of the standard would be filed with the Commission for review. This 
public information could help potential adversaries in planning 
attacks.
           physical security and other threats to reliability
    The existing reliability standards do not extend to physical 
threats to the grid, but physical threats can cause equal or greater 
destruction than cyber attacks. While the Commission is considering 
actions that it can take under its current authority, this authority 
may not be sufficient in cases where quick mandatory action is needed 
to protect the United States from the EMP threat or other National 
security threats to the reliability of our transmission and power 
system. The Federal Government should have no less ability to act to 
protect against potential damage from physical threats to the grid than 
from cyber attacks.
    One example of a physical threat is an electromagnetic pulse (EMP) 
event. EMP events can be generated from either naturally-occurring or 
man-made causes. In the case of the former, solar magnetic disturbances 
periodically disrupt the earth's magnetic field which in turn, can 
generate large induced ground currents on the electric grid. This 
effect, also termed the ``E3'' component of an EMP, can simultaneously 
damage or destroy bulk power system transformers over a large 
geographic area. Regarding man-made events, EMP can also be generated 
by weapons. Equipment and plans are readily available that have the 
capability to generate high-energy bursts, termed ``E1'', that can 
damage or destroy electronics such as those found in control and 
communication systems on the power grid. These devices can be portable 
and effective, facilitating simultaneous coordinated attacks, and can 
be reused, allowing use against multiple targets. The most 
comprehensive man-made EMP threat is from a high-altitude nuclear 
explosion. It would affect an area defined by the ``line-of-sight'' 
from the point of detonation. The higher the detonation the larger the 
area affected, and the more powerful the explosion the stronger the EMP 
emitted. The first component of the resulting pulse E1 occurs within a 
fraction of a second and can destroy control and communication 
electronics. The second component is termed ``E2'' and is similar to 
lightning, which is well-known and mitigated by industry. Toward the 
end of an EMP event, the third element, E3, occurs. This causes the 
same effect as solar magnetic disturbances. It can damage or destroy 
power transformers connected to long transmission lines and cause 
voltage problems and instability on the electric grid, which can lead 
to wide-area blackouts. It is important to note that effective 
mitigation against solar magnetic disturbances and non-nuclear EMP 
weaponry provides effective mitigation against a high-altitude nuclear 
explosion.
    In 2001, Congress established a commission to assess the threat 
from EMP, with particular attention to be paid to the nature and 
magnitude of high-altitude EMP threats to the United States; 
vulnerabilities of U.S. military and civilian infrastructure to such 
attack; capabilities to recover from an attack; and the feasibility and 
cost of protecting military and civilian infrastructure, including 
energy infrastructure. In 2004, the EMP commission issued a report 
describing the nature of EMP attacks, vulnerabilities to EMP attacks, 
and strategies to respond to an attack.\1\ A second report was produced 
in 2008 that further investigated vulnerabilities of the Nation's 
infrastructure to EMP.\2\ The reports concluded that both electrical 
equipment and control systems can be damaged by EMP. The reports also 
pointed out how the interdependencies among the various infrastructures 
could become vulnerabilities after an EMP. In particular, they point to 
the electrical infrastructure's need of the communication and natural 
gas infrastructures.
---------------------------------------------------------------------------
    \1\ Graham, Dr. William R. et al., Report of the Commission to 
Assess the Threat to the United States from Electromagnetic Pulse (EMP) 
Attack (2004).
    \2\ Dr. John S. Foster, Jr. et al., Report of the Commission to 
Assess the Threat to the United States from Electromagnetic Pulse (EMP) 
Attack (2008).
---------------------------------------------------------------------------
    An EMP may also be a naturally-occurring event caused by solar 
flares and storms disrupting the Earth's magnetic field. In 1859, a 
major solar storm occurred, causing auroral displays and significant 
shifts of the Earth's magnetic fields. As a result, telegraphs were 
rendered useless and several telegraph stations burned down. The 
impacts of that storm were muted because semiconductor technology did 
not exist at the time. Were the storm to happen today, according to an 
article in Scientific American, it could ``severely damage satellites, 
disable radio communications, and cause continent-wide electrical 
black-outs that would require weeks or longer to recover from.''\3\ 
Although storms of this magnitude occur rarely, storms and flares of 
lesser intensity occur more frequently. Storms of about half the 
intensity of the 1859 storm occur every 50 years or so according to the 
authors of the Scientific American article, and the last such storm 
occurred in November 1960, leading to world-wide geomagnetic 
disturbances and radio outages. The power grid is particularly 
vulnerable to solar storms, as transformers are electrically grounded 
to the Earth and susceptible to damage from geomagnetically-induced 
currents. The damage or destruction of numerous transformers across the 
country would result in reduced grid functionality and even prolonged 
power outages.
---------------------------------------------------------------------------
    \3\ Odenwald, Sten F. and Green, James L., Bracing the Satellite 
Infrastructure for a Solar Superstorm, Scientific American Magazine 
(Jul. 28, 2008).
---------------------------------------------------------------------------
    In March 2010, Oak Ridge National Laboratory (Oak Ridge) and its 
subcontractor Metatech released a study that explored the vulnerability 
of the electric grid to EMP-related events. This study was a joint 
effort contracted by FERC staff, the Department of Energy, and the 
Department of Homeland Security and expanded on the information 
developed in other initiatives, including the EMP commission reports. 
The series of reports provided detailed technical background and 
outlined which sections of the power grid are most vulnerable, what 
equipment would be affected, and what damage could result. Protection 
concepts for each threat and additional methods for remediation were 
also included along with suggestions for mitigation. The results of the 
study support the general conclusion that EMP events pose substantial 
risk to equipment and operation of the Nation's power grid and under 
extreme conditions could result in major long-term electrical outages. 
In fact, solar magnetic disturbances are inevitable with only the 
timing and magnitude subject to variability. The study assessed the 
1921 solar storm, which has been termed a 1-in-100-year event, and 
applied it to today's power grid. The study concluded that such a storm 
could damage or destroy up to 300 bulk power system transformers, 
interrupting service to 130 million people for a period of years.
    In February 2012, NERC released its Interim Report: Effects of 
Geomagnetic Disturbances on the Bulk Power System. In it, NERC 
concluded that the most likely worst-case system impact from a severe 
geomagnetic disturbance is voltage instability and voltage collapse 
with limited equipment damage.
    On April 30, 2012, the Commission held a technical conference to 
discuss issues related to reliability of the bulk power system as 
affected by geomagnetic disturbances. The conference explored the risks 
and impacts from geomagnetically-induced currents to transformers and 
other equipment on the bulk power system, as well as options for 
addressing or mitigating the risks and impacts. The Commission is 
considering the comments filed after that conference and what actions 
it can take under its current authority to address National security 
threats to the reliability of our transmission and power system from 
electromagnetic pulses.
    The existing reliability standards do not address EMP 
vulnerabilities. Protecting the electric generation, transmission, and 
distribution systems from severe damage due to an EMP-related event 
would involve vulnerability assessments at every level of electric 
infrastructure.
                               conclusion
    Although the Commission's current authority allows it to require 
the submission by the ERO of proposed standards to address the EMP 
threat to the United States, it does not allow the Commission the 
ability to author the standard, thereby limiting its effectiveness. The 
Commission is considering actions that it can take under its current 
authority. This authority, however, does not allow it to author 
standards or to require quick action to protect the United States from 
the EMP threat or other National security threats to the reliability of 
our transmission and power system. Any new legislation should address 
several key concerns, including allowing the Federal Government to take 
action before a cyber or physical National security incident has 
occurred, ensuring appropriate confidentiality of sensitive information 
submitted, developed, or issued under new authority, and allowing cost 
recovery for costs entities incur to mitigate vulnerabilities and 
threats.
    These types of threats pose an increasing risk to the power grid 
that serves our Nation, which undergirds our Government and economy and 
helps ensure the health and welfare of our citizens. Thank you again 
for the opportunity to testify today. I would be happy to answer any 
questions you may have.

    Mr. Lungren. Thank you very much for your testimony.
    Mr. Wales.

 STATEMENT OF BRANDON WALES, DIRECTOR, HOMELAND INFRASTRUCTURE 
    THREAT AND RISK ANALYSIS CONTER, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Wales. Thank you, Chairman Lungren, Ranking Member 
Clarke, and distinguished Members of the committee for inviting 
me to address the threat posed by electromagnetic pulse, or 
EMP, to our Nation's critical infrastructure, and the 
Department of Homeland Security's preparations to respond to 
and recover from EMP attacks.
    As you mentioned, I am the director of the DHS Homeland 
Infrastructure Threat and Risk Analysis Center, known as 
HITRAC, which is charged with analyzing risks to the Nation's 
critical infrastructure from threats and hazards, both natural 
and man-made, recognizing EMP as a growing threat to the 
Nation's digital and physical infrastructures and the growing 
vulnerability of today's microelectronics to that threat. I 
appreciate the opportunity to discuss this issue.
    As you know, an EMP is the burst of electromagnetic 
radiation created when a nuclear weapon is detonated or when a 
non-nuclear EMP weapon is used. Naturally-occurring solar 
weather can generate an effect similar to one component of EMP. 
The consequences of an EMP range from temporary system 
disruptions to permanent physical damage and critical service 
outages.
    Overall, EMP in its various forms can cause widespread 
disruption and serious damage to electronic devices and 
networks, including those upon which many critical 
infrastructures rely, such as communication systems, 
information technology equipment, and supervisory control and 
data acquisition, commonly known as SCADA modules. SCADA 
modules are used in infrastructure, such as electric grids, 
water supplies, and pipelines. The disruption to SCADA systems 
that could result from EMP range from SCADA control errors to 
actual equipment destruction. Secondary effects of EMP may harm 
people through induced fires, electric shocks, and disruption 
of the transportation and critical support systems, such as 
those at hospitals or sites like nuclear power plants and 
chemical facilities.
    EMP places all critical infrastructure sectors at risk. 
Those sectors that rely heavily on communications technology, 
information technology, the electric grid, or that uses SCADA 
system, are particularly vulnerable. The complex 
interconnectivity among critical infrastructure sectors means 
that an EMP incident that affects a single sector will likely 
affect other sectors, potentially resulting in cascading 
failures. The interdependent nature of all 18 critical 
infrastructure sectors complicates the impact of the event and 
recovery from it.
    The Department is working collaboratively, both internally 
and with external stakeholders, to reduce the risk from EMP and 
solar weather. For example, the Federal Emergency Management 
Agency have exercised scenarios involving EMP and solar weather 
and are developing plans to help address these evolving 
threats. FEMA is also working with States and industry to 
reduce the risk from EMP, notably by deploying new capabilities 
as part of the integrated public alert and warning system to 
help keep the public informed and alerted during a major EMP 
event.
    The National Protection and Program Directorate's Office of 
Cybersecurity and Communications has also worked to model and 
assess EMP effects, and to conduct research and propose 
solutions to understand and mitigate EMP risks. NPPD's Office 
of Infrastructure Protection also plays a role in the 
Department's work on EMP. For example, our office conducted a 
study in 2010 on EMP's potential impact on extra-high voltage 
transformers and recommended options for hardening these 
systems from EMP attacks.
    The Science and Technology Directorate has led much of the 
Department's research in the EMP area. Its recovery transformer 
project is intended to increase the resilience of the power 
grid through the development of a prototype extra-high voltage 
transformer that, unlike traditional transformers, will be able 
to be quickly delivered to a site, reducing potential recovery 
time by 75 percent.
    S&T is also working to increase the resilience of the power 
grid through their resilient electric grid project. This 
project is designed to develop an inherently fault-current-
limiting high temperature super-conducting cable, which can 
help the electric utilities manage fault currents that can 
cause cascading blackouts and permanent damage to electrical 
equipment.
    The Commission to assess the threat to the United States 
from EMP attack recommended in its final report that DHS play a 
leading role in spreading knowledge of the nature of prudent 
mitigation preparations for EMP attack to mitigate its 
consequences. The Department takes that recommendation 
seriously. We have pursued a deeper understanding of the threat 
and its potential impacts and effective mitigation strategies, 
and a greater level of public awareness and readiness through 
various communication channels. But as we all know, there is 
more work to be done.
    Thank you for holding this important hearing. I would be 
happy to respond to any questions.
    [The prepared statement of Mr. Wales follows:]
                  Prepared Statement of Brandon Wales
                           September 12, 2012
    Thank you, Chairman Lungren, Ranking Member Clarke, and 
distinguished Members of the committee. It is a pleasure to appear 
before you today to discuss the nature of the threat posed by 
electromagnetic pulse (EMP) to our Nation and its critical 
infrastructure, including its cyber, communications, and electric-grid 
assets, as well as to discuss the Department of Homeland Security's 
(DHS) preparations to respond to and recover from potential EMP 
attacks.
    Over the past several decades, the threat to digital and physical 
infrastructures has grown. For example, today's power grid and 
information networks are much more vulnerable to EMP than those of a 
few decades ago.\1\ The Commission to Assess the Threat to the United 
States from Electromagnetic Pulse (EMP) Attack recommended in its final 
report that DHS ``play a leading role in spreading knowledge of the 
nature of prudent mitigation preparations for EMP attack to mitigate 
its consequences.''\2\ The Department takes that recommendation 
seriously and welcomes in cooperation with other Government agencies 
increasing understanding of this critical topic.
---------------------------------------------------------------------------
    \1\ Since the 1980s, our power grid control systems and information 
infrastructures have been growing in their reliance on the Ethernet and 
computers, which are much more vulnerable to E1 EMP than previous 
control and communications systems designs. Likewise, the power grid 
today is much more vulnerable to (E3 EMP) and solar storms than the 
grid of the 1970s and 80s due to the increasing network size and 
evolution to higher operating voltages.
    \2\ ``Report of the Commission to Assess the Threat to the United 
States from Electromagnetic Pulse (EMP) Attack: Critical National 
Infrastructures,'' April 2008, page 181. This report presents the 
results of the Commission's assessment of the effects of a high-
altitude EMP attack on our critical National infrastructures and 
provides recommendations for their mitigation.
---------------------------------------------------------------------------
                               background
    An EMP is the burst of electromagnetic radiation created when a 
nuclear weapon is detonated or when a non-nuclear EMP weapon is used. 
Naturally-occurring solar weather can generate effects similar to one 
component of an EMP. EMPs can be high-frequency, similar to a flash of 
lightning or a spark of static electricity, or low-frequency, similar 
to an aurora-induced phenomenon.\3\ An EMP can spike in less than a 
nanosecond or can continue longer than 24 hours, depending on its 
source. The consequences of an EMP range from permanent physical damage 
to temporary system disruptions and can result in fires, electric 
shocks to people and equipment, and critical service outages. There are 
four general classes of EMP.
---------------------------------------------------------------------------
    \3\ Aurora-induced phenomena refer to effects like geomagnetically-
induced currents in the power grid that are caused by solar storms 
which are associated with increased aurora activity. Although there are 
many different phenomena associated with solar storms, one of the most 
important is the geomagnetically-induced quasi-dc current flow that can 
damage our power transmission networks.
---------------------------------------------------------------------------
    High-altitude EMP (HEMP) results from a nuclear detonation 
typically occurring 15 or more miles above the Earth's surface. The 
extent of HEMP effects depends on several factors, including the 
altitude of the detonation, the weapon yield and design, and the 
electromagnetic shielding, or ``hardening,'' of assets. One high-
altitude burst could blanket the entire continental United States and 
could cause widespread power outages and communications disruptions and 
possible damage to the electricity grid for weeks or longer.\4\ HEMP 
threat vectors can originate from a missile, such as a sea-launched 
ballistic missile; a satellite asset; or a relatively low-cost balloon-
borne vehicle. A concern is the growing number of nation-states that in 
the past have sponsored terrorism and are now developing capabilities 
that could be used in a HEMP attack.
---------------------------------------------------------------------------
    \4\ ``Report of the Commission to Assess the Threat to the United 
States from Electromagnetic Pulse (EMP) Attack: Critical National 
Infrastructures,'' April 2008, page vi, ``When a nuclear explosion 
occurs at high altitude, the EMP signal it produces will cover the wide 
geographic region within the line of sight of the detonation. This 
broad-band, high-amplitude EMP, when coupled into sensitive 
electronics, has the capability to produce widespread and long-lasting 
disruption and damage to the critical infrastructures that underpin the 
fabric of U.S. society.'' See also: Glasstone, S., P.J. Dolan, ``The 
Effects of Nuclear Weapons,'' Chapter XI on EMP, U.S. Dept. of Energy, 
1977.
---------------------------------------------------------------------------
    Source Region EMP (SREMP) is a burst of energy similar to HEMP but 
differs in that it is created when a nuclear weapon detonates at lower 
altitudes within the atmosphere. SREMP can occur when a detonation 
occurs on or near the ground, as would likely be the case of a 
terrorist nuclear device attack. A SREMP's electromagnetic field is 
much more limited in range than that from HEMP; it would only affect a 
delimited geographic area. SREMP can induce very high currents on power 
cables or metallic communications lines near the fireball, and it can 
send extreme spikes of energy great distances from the blast zone along 
these metal lines, potentially causing fires where these lines meet 
other infrastructures. In addition, the SREMP travels through the air 
and can damage or disrupt equipment connected to Ethernet cables, 
telephone lines, and power cords out to 70 miles or more. Electronic 
systems not connected to power cords or communications lines, such as a 
cell phone, are generally resistant to SREMP but become useless if the 
infrastructure that supports them is non-functional. While SREMP is not 
the primary reason a terrorist would detonate a nuclear weapon, it is 
important to note that all ground-based detonations create SREMP of 
sufficient magnitude to cause infrastructure disruptions, including an 
improvised nuclear device, a crude nuclear device that could be built 
from the components of a stolen weapon or from using nuclear materials. 
Given the possible impacts of SREMP, such as secondary fires and the 
disruptions of power, communications, and other critical 
infrastructures, it is an important consideration in our Department's 
planning to mitigate and respond to this type of attack.
    Unlike HEMP and SREMP, which primarily disrupt Earth-based 
infrastructures, System Generated EMP (SGEMP) is a threat to space-
based assets, such as satellites or a space station. SGEMPs originate 
from a nuclear weapon detonation above the atmosphere that sends out 
damaging X-rays that strike space systems. Both SGEMP and HEMP are 
similar, in that they both originate from a high-altitude burst. The 
Department's chief concern with SGEMP and other related high-altitude 
nuclear effects is that satellite or other space systems that support 
critical communications and navigation services, as well as essential 
intelligence functions, can be immediately disrupted. SGEMP and other 
related effects could also harm systems supporting any astronaut in 
space.
    The fourth type of EMP is Non-Nuclear EMP, or NNEP. This type of 
EMP can be created by Radio Frequency Weapons (RFWs), devices designed 
to produce sufficient electromagnetic energy to burn out or disrupt 
electronic components, systems, and networks. RFWs can either be 
electrically-driven, where they create narrowband or wideband 
microwaves, or they can be explosively driven, where an explosive is 
used to compress a magnetic field to generate the pulse. Multiple 
nations have used RFWs since the 1960s to disable or jam security, 
communications, and navigation systems; induce fires; and disrupt 
financial infrastructures. Devices that can be used as RFWs have 
unintentionally caused aircraft crashes and near crashes, pipeline 
explosions, gas spills, computer damage, vehicle malfunctions, weapons 
explosions, and public water system malfunctions.\5\ The Department 
believes that much of the mitigation and planning we are doing for 
other types of EMP will help reduce our threat to NNEP.
---------------------------------------------------------------------------
    \5\ Robert L. Schweitzer, LTG (ret) USA, ``Radio Frequency Weapons: 
The Emerging Threat and Policy Implications,'' Eagan, McAllister 
Associates, October 1998; see also: Overview of Evolving and Enduring 
Threats to Information Systems, National Communications System, August 
2012.
---------------------------------------------------------------------------
                             solar weather
    Solar Weather is created as a result of massive explosions on the 
sun that may shoot radiation towards the Earth. These effects can reach 
the Earth in as little as 8 minutes with Solar Flare X-rays or over 14 
hours later with a Coronal Mass Ejection (CME) plasma hurricane. An 
extreme CME is the Department's biggest Solar Weather concern. It could 
create low-frequency EMP similar to a megaton-class nuclear HEMP 
detonation over the United States, which could disrupt or damage the 
power grid, undersea cables, and other critical infrastructures. The 
United States experiences many solar weather events each year, but 
major storms that could significantly impact today's infrastructures 
are not common but have previously occurred in 1921 and 1859 and 
possibly in several other years prior to the establishment of the 
modern power grid. The U.S. Department of Energy and utility owners and 
operators have been focusing on potential threats and steps that 
utilities can take to reduce possible impacts.\6\ Work is underway in 
cooperation with a number of Federal agencies including the: National 
Aeronautics and Space Administration (NASA), Nation Oceanic and 
Atmospheric Administration (NOAA), United States Geological Survey, 
Department of Energy, Department of Defense, and DHS with industry 
support and participation to ensure this threat is understood.
---------------------------------------------------------------------------
    \6\ In the last 200 years, only the 1859 and 1921 solar superstorms 
are believed by experts to have exceeded the 4,000 nanoTesla/minute 
level over the United States. If one of these storms were to occur 
today, many experts believe they would likely damage key elements of 
the power grid and could cause very long-term power outages over much 
of the United States.
---------------------------------------------------------------------------
              potential impacts to critical infrastructure
    Overall, EMP in its various forms can cause widespread disruption 
and serious damage to electronic devices and networks, including those 
upon which many critical infrastructures rely, such as communication 
systems, information technology equipment, and supervisory control and 
data acquisition (SCADA) modules. SCADA modules are used in 
infrastructure such as electric grids, water supplies, and pipelines. 
The disruptions to SCADA systems that could result from EMP range from 
SCADA control errors to actual SCADA equipment destruction. Secondary 
effects of EMP may harm people through induced fires, electric shocks, 
and disruptions of transportation and critical support systems, such as 
those at hospitals or sites like nuclear power plants and chemical 
facilities.
    EMP places all critical infrastructure sectors at risk. Those 
sectors that rely heavily on communications technology, information 
technology, the electric grid, or that use a SCADA system are 
particularly vulnerable. The complex interconnectivity among critical 
infrastructure sectors means that EMP incidents that affect a single 
sector will likely affect other sectors--potentially resulting in 
cascading failures. The interdependent nature of all 18 critical 
infrastructure sectors complicates the impact of the event and recovery 
from it.
      dhs's efforts to study, mitigate, and respond to emp attacks
    The Department, acting through the Federal Emergency Management 
Agency (FEMA), the National Protection and Programs Directorate (NPPD) 
and the Science and Technology Directorate (S&T), has worked 
extensively to help recognize EMP as a threat to the Nation. 
Specifically, the Department is working collaboratively, both 
internally and with external stakeholders, in various arenas to reduce 
risk. For example, DHS has exercised scenarios involving both EMP and 
solar weather and is developing plans to help address these evolving 
threats. Likewise, FEMA and other Government agencies are working with 
States and industry. For example, FEMA is deploying new capabilities as 
part of the Integrated Public Alert and Warning System, such as the 
protected Emergency Alert System Primary Entry Point AM and FM radio 
stations that would be used by the President and key leadership to help 
keep the public informed and alerted during a major EMP event.\7\ Both 
NASA and NOAA are improving and testing their Space Weather warning 
systems. Many of the Federal Government's missions rely on satellite 
imagery, communications satellites, and GPS for their execution. The 
potential impact of solar storms on satellites led Secretary Napolitano 
to issue the DHS Space Policy on February 3, 2011, which committed the 
Department to working with both private and public-sector partners on 
increasing the resilience of mission essential functions.
---------------------------------------------------------------------------
    \7\ To date, 17 National-level Emergency Alert System radio 
stations have been protected against EMP. Within the next year, another 
20 National-level EAS radio stations are planned to have EMP protection 
installed.
---------------------------------------------------------------------------
    Two offices within NPPD are at the forefront of understanding and 
working to identify how EMP can impact the homeland security 
enterprise. First, the Office of Cybersecurity and Communications 
(CS&C) has worked extensively to model and assess EMP effects and 
conduct research and propose solutions to understand and mitigate EMP 
risks. As a result, CS&C has produced many assessments of the risks and 
mitigation options related to EMP. In particular, significant progress 
has been made in the last few years in modeling and understanding the 
risks of SREMP associated with an improvised nuclear device.
    NPPD's Office of Infrastructure Protection (IP) also plays a 
significant role in the Department's work on EMP. IP conducted a study 
in 2010 on EMP's potential impact on extra high-voltage (EHV) 
transformers for the Western United States' electrical grid. The study 
included findings about EMP from both artificial and naturally-
occurring incidents and recommended options for hardening EHV 
transformers from EMP.
    S&T has led much of the Department's research in the EMP area and 
is conducting important work through the Recovery Transformer (RecX) 
Project to increase the resiliency of the EHV transmission power grid, 
through the use of more mobile and modular transformers. EHV 
transformers are very large, extremely difficult to transport, and 
until 2009 primarily manufactured overseas, complicating rapid recovery 
and restoration efforts. This effort has developed a prototype EHV 
transformer that can quickly be deployed to a site, via a series of 
trailers and semi-trucks, and then installed, assembled, and energized 
rapidly. The prototype RecX was demonstrated and installed in the grid 
at a host utility and is currently undergoing a 1-year observational 
period to verify its performance.
    Another Departmental effort to increase the resiliency of the power 
grid is the S&T Resilient Electric Grid Project. S&T has developed a 
power-surge limiting, high-temperature, superconducting cable for 
electric grid resiliency that enables distribution-level substations to 
interconnect and share power and assets, while helping electric 
utilities manage power surges arising from a variety of causes that can 
cause cascading blackouts and permanent damage to electrical equipment. 
The interconnection of substations increases the resiliency of the grid 
by creating multiple paths for power flow. Superconducting cables also 
provide additional benefits such as allowing more power to flow through 
a smaller cable with lower transmission losses. The cable will be 
installed for testing and evaluation in Yonkers, NY, in 2014. Several 
approaches to improving the resiliency of the electrical grid are 
underway both in the United States and abroad that hold promise to 
reduce the vulnerability of extra large transformers and reduce the 
threat to the electricity grid.
                               conclusion
    DHS has pursued a deeper understanding of the EMP threat as well as 
its potential impacts, effective mitigation strategies, and a greater 
level of public awareness and readiness in cooperation with other 
Federal agencies and private equipment and system owners and operators 
through various communications channels. However, more work is needed 
to understand the risk posed by EMP and solar weather to all sectors, 
through direct and cascading impacts. I commend the committee for its 
interest in this key issue and look forward to your questions.

    Mr. Lungren. Thank you very much, Mr. Wales.
    Mr. Aimone.

 STATEMENT OF MICHAEL A. AIMONE, DIRECTOR, BUSINESS ENTERPRISE 
INTEGRATION OFFICE OF THE DEPUTY UNDER SECRETARY OF DEFENSE FOR 
  INSTALLATIONS AND ENVIRONMENT, OFFICE OF UNDER SECRETARY OF 
DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS, DEPARTMENT 
                           OF DEFENSE

    Mr. Aimone. Thank you, Chairman Lungren, Ranking Member 
Clarke, and distinguished Members of the subcommittee.
    I was asked specifically to address the question of how the 
Department of Defense would operate during a significant outage 
of the commercial electrical grid. Although today's hearing is 
focused on the prospect of the EMP event, such an event is only 
just one scenario of a grid outage. DOD, as it has been stated 
before me, is in fact heavily dependent upon the electrical 
commercial grid.
    The Department has two closely-coordinated sets of 
activities that focus on the need to maintain critical mission 
activities in the event of a commercial outage. One set of 
these activities, led by our Department's Office of Homeland 
Defense, is part of the Department's explicit Mission Assurance 
Strategy. The other set of activities focused in the Office of 
the Under Secretary for Installations and Environment falls 
underneath the Facilities Energy Strategy. These two strategies 
are tied together.
    With regards to the Mission Assurance Strategy, the 
Department has long had a major focus on mitigating risks to 
high-priority DOD facilities and infrastructure and the 
critical global missions they support. To that end, DOD 
recently adopted the Mission Assurance Strategy to focus on 
enduring operational continuity in an all-hazards threats 
environment.
    This strategy entails a two-track approach. Track I 
includes in-house mitigation activities, those efforts that the 
Department can execute largely in-house. Track II of our 
Mission Assurance Strategy tackles the many challenges to DOD 
mission execution and requires external collaboration with our 
partners in the Department of Energy, Homeland Security, and 
industry.
    With regards to the facility's energy strategy, the 
Department's fixed installations are traditionally served by--
as largely as platforms for training and deployment of forces. 
But in recent years, they have begun to provide direct support 
to combat operations, such as unmanned aerial vehicles flown in 
Afghanistan from fixed installations here in the United States.
    Our fixed installations also serve as staging platforms for 
humanitarian and Homeland Defense missions. These installations 
are largely dependent on the commercial power grid that is 
vulnerable to disruptions due to aging infrastructure, weather-
related events, and potential kinetic and cyber attack.
    Currently, the Department ensures that it can continue its 
mission-critical activities on base, in the event of a grid 
outage through its fleet of on-site power generation equipment. 
This equipment is connected to essential mission systems. In 
addition, each installation has standby generators in storage 
for repositioning as required.
    As further backup to these on-site generation equipment, 
DOD maintains a strategic stockpile of electrical power 
generators and support equipment that is kept in operational 
readiness. For example, during Hurricane Katrina, the Air Force 
transported more than 2 megawatts of specialized diesel 
generators from Florida, where they were stored, to the Keesler 
Air Force base in Mississippi to support base recovery.
    Although the Department will continue to maintain its fleet 
of on-site and mobile backup generators, we are also moving 
aggressively to adopt the next generation micro-grids. Advanced 
micro-grids combined with on-site energy generation and energy 
storage offer a more robust and cost-effective approach to 
ensuring installation energy security than the current solution 
of just maintaining a fleet of backup generators.
    Advanced micro-grids are a triple play. First, they will 
facilitate and incorporate renewable and other on-site energy 
generation. Second, they will reduce installation energy costs 
on a day-to-day basis by allowing for load balancing and demand 
response. Third, and more importantly, the combination of on-
site energy and storage, together with the micro-grid's ability 
to manage local energy supply and demand will allow an 
installation to shed the non-essential loads and maintain 
critical mission loads if the grid should go down.
    The Department's Installation Energy Test bid is funding 10 
demonstrations of micro-grids and storage technologies to 
evaluate benefits and risks of alternative approaches and 
configurations. The test bid is working with multiple vendors 
so that to allow that DOD captures the benefits of competition.
    That ends my prepared remarks. Thank you for holding this 
important hearing.
    [The prepared statement of Mr. Aimone follows:]
                Prepared Statement of Michael A. Aimone
                           September 12, 2012
    Chairman Lungren and distinguished Members of the subcommittee. 
Thank you for the opportunity to testify. I was asked to address the 
question of how the Department of Defense (DoD) would operate during a 
significant outage of the commercial electric power grid.
    Although today's hearing is focused on the prospect of an 
electromagnetic pulse (EMP) event, such an event is only one scenario 
for a grid outage. DoD is heavily dependent on the commercial electric 
power grid. The Department has two closely coordinated sets of 
activities that focus on the need to maintain critical mission 
activities in the event of a commercial grid outage. One set of 
activities, led by DoD's office of homeland defense, is part of the 
Department's explicit ``mission assurance strategy.'' The other set of 
activities, focused on the Department's fixed installations and led by 
its Installations and Environment office, falls under DoD's ``facility 
energy strategy.''
                       mission assurance strategy
    The Department has long had a major focus on mitigating risks to 
high-priority DoD facilities and infrastructure and the critical global 
missions they support. Toward that end, DoD recently adopted an 
explicit Mission Assurance Strategy, which is focused on ensuring 
operational continuity in an all-hazard threat environment.
    This strategy entails a two-track approach. Track I includes ``in-
house'' mitigation efforts--activities that the Department can execute 
largely on its own. A key element is DoD's Defense Critical Industry 
Program (DCIP)--an integrated risk management program designed to 
secure critical assets, infrastructure, and key resources for our 
Nation. DoD and the Department of Homeland Security (DHS) work closely 
together as part of DCIP. Under Track I of the Mission Assurance 
Strategy, DCIP will continue to update the list of DoD's most critical 
assets and target them for special mitigation efforts through DoD's 
budget and other internal processes.
    Track II of our Mission Assurance Strategy tackles the many 
challenges to DoD mission execution that require external collaboration 
with partners such as the Department of Energy (DOE), DHS, and 
industry. Given that DoD mission execution relies heavily upon the 
energy surety of the communities surrounding our installations, Defense 
Industrial Base facilities spread across entire regions, and on private 
sector infrastructure that will collapse without electricity, this two-
track approach can help meet the challenges to DoD mission assurance 
that lie far beyond our military bases.
                     dod's facility energy strategy
    DoD's facility energy strategy is also focused heavily on grid 
security in the name of mission assurance. Although the Department's 
fixed installations traditionally served largely as a platform for 
training and deployment of forces, in recent years they have begun to 
provide direct support for combat operations, such as unmanned aerial 
vehicles (UAVs) flown in Afghanistan from fixed installations here in 
the United States. Our fixed installations also serve as staging 
platforms for humanitarian and homeland defense missions. These 
installations are largely dependent on a commercial power grid that is 
vulnerable to disruption due to aging infrastructure, weather-related 
events, and potential kinetic, cyber attack. In 2008, the Defense 
Science Board warned that DoD's reliance on a fragile power grid to 
deliver electricity to its bases places critical missions at risk.\1\
---------------------------------------------------------------------------
    \1\ ``More Fight--Less Fuel,'' Report of the Defense Science Board 
Task Force on DoD Energy Strategy, February 2008. Facility energy is 
also important because of its high cost. With more than 300,000 
buildings and 2.2 billion square feet of building space, DoD has a 
footprint three times that of Walmart and six times that of the General 
Services Administration. Our corresponding energy bill is $4 billion 
annually--roughly 10 percent of what DoD spends to operate and maintain 
its installation infrastructure.
---------------------------------------------------------------------------
                        standby power generation
    Currently, DoD ensures that it can continue mission-critical 
activities on base largely through its fleet of on-site power 
generation equipment. This equipment is connected to essential mission 
systems and automatically operates in the event of a commercial grid 
outage. In addition, each installation has standby generators in 
storage for repositioning as required. Facility power production 
specialists ensure that the generators are primed and ready to work, 
and that they are maintained and fueled during an emergency. With 
careful maintenance these generators can bridge the gap for even a 
lengthy outage. As further back up to this installed equipment, DoD 
maintains a strategic stockpile of electrical power generators and 
support equipment that is kept in operational readiness. For example, 
during Hurricane Katrina, the Air Force transported more than 2 
megawatts of specialized diesel generators from Florida, where they 
were stored, to Keesler Air Force Base in Mississippi, to support base 
recovery.
                       next generation microgrids
    Although the Department will continue to maintain its fleet of on-
site and mobile backup generators, we are moving aggressively to adopt 
next-generation microgrids. Advanced microgrids, combined with on-site 
energy generation (e.g., solar or geothermal) and energy storage, offer 
a more robust and cost-effective approach to ensuring installation 
energy security than the current solution (backup generators). Although 
microgrid systems are in use today, they are relatively 
unsophisticated, with limited ability to integrate renewable and other 
distributed energy sources, little or no energy storage capability, 
uncontrolled load demands, and ``dumb'' distribution that is subject to 
excessive energy losses. By contrast, we envision advanced (or 
``smart'') microgrids as local power networks that can utilize 
distributed energy, manage local energy supply and demand, and operate 
seamlessly both in parallel to the grid and in ``island'' mode.
    Advanced microgrids are a ``triple play'' for DoD's installations: 
First, they will facilitate the incorporation of renewable and other 
on-site energy generation. Second, they will reduce installation energy 
costs on a day-to-day basis by allowing for load balancing and demand 
response--i.e., the ability to curtail load or increase on-site 
generation in response to a request from the grid operator. Third, and 
most importantly, the combination of on-site energy and storage, 
together with the microgrid's ability to manage local energy supply and 
demand, will allow an installation to shed non-essential loads and 
maintain mission-critical loads if and when the grid goes down.
    DoD's Installation Energy Test Bed, run out of the Department's 
Installations and Environment office, is funding ten demonstrations of 
microgrid and storage technologies to evaluate the benefits and risks 
of alternative approaches and configurations. The Test Bed is working 
with multiple vendors so as to allow DoD to capture the benefits of 
competition. Demonstrations are underway at Twentynine Palms, CA 
(General Electric's advanced microgrid system); Fort Bliss, TX 
(Lockheed Martin); Joint Base McGuire-Dix-Lakehurst, NJ (United 
Technologies); Fort Sill, OK (Eaton); and several other installations.

    Mr. Lungren. Thank you very much. I appreciate the 
testimony of all our panelists. You have added to our record in 
very substantial ways and we appreciate that.
    I will recognize myself to begin with the questioning now.
    Mr. McClelland and Mr. Wales, in the area of dam safety and 
in the area of protection against flooding, we have means by 
which we assess whether a dam is at protection level of 1-in-
100-year flood, 1-in-200-year flood. My area, the Folsom Dam 
was 1-in-90-year flood. We are doing modifications to bring it 
up to 1-in-200-year flood, which is an improvement, but would 
still leave us behind where New Orleans was before Katrina hit.
    But there is an assessment by which you can make those 
determinations. Do we have a way of determining, with critical 
infrastructure of the electric grid, whether they are protected 
against the 1-in-100 possibility, the 1-in-200 possibility? Is 
there a way of gauging that sort of thing? If there is, is 
there a general assessment of where our electric grid is in 
terms of protecting against this 1-in-100 possibility of 
electromagnetic pulse?
    Mr. McClelland. I can start with that. There are 
operational procedures in specific parts of the country and 
monitors in place. For instance, in PJM, in the eastern 
interconnection, if ground current levels reach 10 amps, they 
start to mitigate. They start to re-dispatch the units and move 
power around, so they reduce load on some of the transformers. 
But as far as automatic mitigation efforts, there are very few.
    If an entity puts in a series capacitor, it will block a 
ground-induced current, so it will mitigate any effects from a 
solar magnetic disturbance. It is not done particularly for 
GMD. It is done for economic reasons to reduce the losses on 
the transmission line and increase the throughput, particularly 
in the western interconnection. The far and away, both the 
electronics aspects and the large power equipment, is largely 
unmitigated from a hardware standpoint.
    I think that is particularly important when you consider 
some of the past events. In 1989, there was a geomagnetic 
disturbance, a solar flare. The whole province of Quebec, 5 
million people, was out of power in 90 seconds. There was 
little any operator could have done. In fact, there was nothing 
practically an operator could have done to prevent that grid 
from collapsing.
    The information we have from Zurich is that--and we are 
trying to confirm this with our friends in Quebec--is that that 
outage alone cost $2 billion.
    Mr. Lungren. You say there is nothing that could be done. 
Do you mean with current equipment as it was displayed at that 
time? Or are there that could have been done in retrospect?
    Mr. McClelland. Oh, yes. There are things that could have 
been done. But from an operational standpoint, it happened too 
fast for an operator sitting at a terminal to really realize 
what was occurring. After that event, though, Quebec did 
protect themselves from geomagnetic disturbance and 
electromagnetic pulse. They did put series capacitors in to 
protect their system. So they have mitigated themselves against 
this issue.
    Mr. Lungren. Mr. Wales, Congressman Franks suggested that 
the costs associated with taking some of these measures to 
protect our electric grid in the light of the potential damage 
would be reasonable. Does that make sense to you?
    Mr. Wales. I would actually defer some of this question to 
my colleague from FERC. But I would say two things. One is, 
working with the private sector, they are going to look at both 
cost; they are also going to look at the potential impact on 
operations. I think the electric sector is a fairly 
conservative industry. They have a responsibility for ensuring 
a very high degree of reliability in electric power grids. So 
anytime we turn on the lights, it is 99-plus times, it is 
working. In order to maintain that, they are fairly 
conservative about new advances in new technology, what gets 
inserted in the grid without sufficient testing and other 
procedures.
    Over time, I think we are definitely seeing improvements, 
more series capacitors inside of networks to mitigate the risk 
of geomagnetic disturbances, exploring new technologies that 
could be brought to bear to allow a more resilient grid.
    There is certainly more that the industry can do. I think 
one last point on the cost is, this is an industry that when 
they want to raise costs, have to get permission from numerous 
utility commissions--utility boards around the country. So when 
they have to pass on potential costs, even ones that may seem 
minor, they have to go request permission from individual 
utility commissions, one at a time. That does have a potential 
impact on their ability to move quickly, raise rates, in order 
to deploy new and advanced technologies.
    Mr. Lungren. I would say that costs are difficult to pass 
on if, in fact, the information is not there for people to 
understand the worthiness of the cost commitment. Let me just 
ask you Mr.--and by the way, when you use the word 
conservative, I am not offended.
    [Laughter.]
    Mr. Lungren. Mr. McClelland, in terms of the costs, 
Congressman Franks suggested that the costs are not out of 
proportion to the damage to be prevented. Is that, in your 
mind, accurate?
    Mr. McClelland. Yes. Just to give you a quick example, if 
we go to the Quebec outage again, the cost to society for a 
relatively short outage to 5 million people--I believe the 
outage was about 9 hours long--was about $2 billion, estimated 
by Zurich. Mitigation devices that would absolutely block the 
geomagnetic disturbance effects, so you wouldn't have to worry 
if it is a 1-in-100-year event or a 1-in-60,000-year event, the 
Fukushima-Daiichi, the conservative cost is about $500,000 per 
transformer. If you extrapolate that into $2 billion cost for 
relatively modest losses, I mean, you could mitigate 4,000 
transformers, which is far and away in excess of anything that 
would need to be done in Quebec.
    The Oak Ridge report, on the other extreme, when it 
estimated severe effect, was $1 trillion to $2 trillion. That 
is with equipment damage. So that one event, even if there is 
no loss of equipment whatsoever, one even could more than pay 
for the cost of mitigation.
    Mr. Lungren. Thank you very much.
    The Ranking Member is recognized.
    Ms. Clarke. Thank you, Mr. Chairman. Conservatism does has 
its place.
    My first question is to Mr. Wales. I wanted to just get 
from you what your best risk analysis is telling us about the 
probability of a severe geomagnetic disturbance or an EMP that 
would cause widespread damage to the electric grid.
    Mr. Wales. You know, I think the Department would classify 
both of those events as ones that are low likelihood. In the 
case of a solar storm, we are sure that there are solar storms 
that will hit the United States again in the future. Whether 
that is in 1 year or in 10,000 years, we don't know.
    The potential when you are evaluating the potential impacts 
of those types of events, in particular the challenge of 
addressing what Chairman Lungren mentioned earlier in terms of 
against the 1-in-100-year flood, looking at geomagnetic storms 
is not just a 1-in-100-year event, it is what direction is that 
solar storm--north, south, east, west? What is the intensity of 
that storm, duration, et cetera? So all of those factors will 
come into play when evaluating the potential impacts. So in 
some cases, if it goes in one direction, the western 
interconnect doesn't have severe outages. If it goes in another 
direction, it may have a severe outage.
    I would also say that some of the information associated 
with the likelihood of an EMP being used would have to be done 
in a closed hearing. But on the whole, we would continue to 
assess these as low-likelihood events. That is not to say that 
the nature of the impacts associated with them don't require 
action, which is why the Department is taking those measures 
where it can. But again, trying to balance those against all 
the risks that critical infrastructure, including the power 
grid face every day, requires both interaction with the private 
sector to build their capacity and ensure that they have the 
right information available to them as they are deciding on 
their own, how to use their scarce resources for security 
enhancements and to build resilience into these systems.
    Ms. Clarke. So would you say low likelihood is the 
equivalent of a once-in-10-year event, once-in-100-year event, 
once-in-500-year event? You know, how do we kind of gauge that 
categorization of it?
    Mr. Wales. I think, in general, in the solar storm context, 
it is a little bit easier to determine since there is more 
frequency in which to do analysis on. Those severe solar storms 
have historically been termed a 1-in-100-year event. That is 
generally considered to be a low-likelihood scenario, 
particularly when that 1-in-100-year event may only hit a one 
piece of the country, may hit--or a larger one--we don't really 
know.
    I think there is need to do more study for exactly how a 
solar event could impact the infrastructure. While it is likely 
that there will be significant disruption, the key variable is 
whether there will be severe equipment damage that will require 
long lead times to replace. Without that kind of information, 
it is unclear what type of mitigation may be best and be able 
to assess in more detail what the likely consequences and how 
quickly we can recover.
    Ms. Clarke. Mr. McClelland, as I understand, there are two 
risks that result from the introduction of a ground-induced 
current from a geomagnetic disturbance to the bulk power 
system. No. 1, damage to the bulk power system assets, like 
transformers. No. 2, loss of reactive power support, which 
could lead to voltage instability. How does the Commission 
oversee that operators of the grid address these risks in a 
responsible and comprehensive way?
    Mr. McClelland. I think you have hit on, sort of, the key 
differentiation between all the prior bodies of study and the 
NERC report. The prior bodies of study have said that there 
would be a significant opportunity for widespread destruction 
of transformers. The NERC report, however, took exception and 
said that the reactive power requirements of the transformers 
under these conditions would increase significantly, causing 
the grid to collapse before there was any significant damage. 
The two are very related.
    So the Commission called a technical conference to sort out 
the details. What we did find was an absolute certainty was 
that no one really knows. There was no correlation studies done 
on the reactive power supply or on the relays and controls 
themselves, so with absolute certainty, no one can say that the 
grid would collapse.
    In fact, there have been events in 2003 in South Africa, 
there was a low-level GIC current. It was too small to cause 
reactive power requirements to increase on the transformers and 
yet it destroyed 12 large bulk power system transformers. It 
took years for the South Africans to recover.
    So we know with certainty that is not going to be the case. 
We know in Quebec, although the grid collapsed very quickly, 
there were still transformers lost at St. John's Bay. So I 
think that the issue, the consensus we did achieve was that 
grid collapse is absolutely unacceptable in any event, whether 
it causes a lot of transformers to be damaged or whether it 
just causes a few transformers. The protection scenario, 
fortunately, is the same.
    So if the GIC is mitigated, either dampened or blocked--if 
you dampen, you have to pick to what level. If you block, it 
costs the same and you have got certainty associated with it. 
You won't have to worry about either the reactive power 
consumption or the destruction of the transformers. It is 
mitigated.
    Mr. Lungren. Thank you.
    Mr. Long.
    Mr. Long. Thank you, Chairman.
    Mr. Wales, you talked about a study, I think, in an 
accompanying report earlier. Was that a HITRAC study? Or----
    Mr. Wales. Yes.
    Mr. Long. Okay. What would the cost be to implement that 
proposal that came out of the HITRAC study and accompanying 
report?
    Mr. Wales. We did not work with industry to assess the 
explicit costs. Some of those recommendations, however, were 
similar to those that were found in the EMP Commission's 
report. I will refer you to that, but in the EMP Commission and 
most of the recommendations in the electric power grid section 
came to a couple of billion dollars for a Nation-wide 
implementation.
    Mr. Long. It would be what?
    Mr. Wales. A couple of billion dollars for Nation-wide 
implementation of all of their recommendations related to the 
electric power system.
    Mr. Long. A couple of billion dollars Nation-wide?
    Mr. Wales. Yes.
    Mr. Long. Mr. McClelland, didn't you say that the one event 
up in Canada cost how much?
    Mr. McClelland. Two billion dollars. Estimated at $2 
billion by Zurich.
    Mr. Long. So you are telling me, Mr. Wales, that for $2 
billion we could implement what we need to do to mitigate this.
    Mr. Wales. It may be higher than $2 billion. It may be 
closer to $4 billion or $5 billion. Some of their costs were 
per unit, so figuring out exactly how many of those units you 
would employ, where you want to have that level of EMP 
protection. But based upon, again, the EMP Commission's report 
contained these cost estimates.
    Mr. Long. The what now?
    Mr. Wales. The Commission to assess the threat to EMP to 
the United States--that Commission--that is where those cost 
estimates came from.
    Mr. Long. It still doesn't jive to me. So, I mean, if we 
are asked to do something as a Congress in these austere times, 
it would sure be handy if we had some kind of a--and, I mean, 
just on the surface, thinking that an event in Canada cost $2 
billion in Quebec. Was that where it was?
    Mr. Wales. Yes.
    Mr. Long. To think we could go and do everything--put in 
all the safeguards we need to for $2 billion or $4 billion or 
$6 billion, that doesn't jive with me. So if we are trying to 
make decisions here and serious discussion, I think that if you 
all could come back with some figures of some type that had a 
little justification to them, it would help us try and help 
you.
    Mr. Wales, by virtue of how our economy is structured, most 
electric and other critical infrastructure is privately owned. 
So No. 1, I think we would have to get the figure first, but 
how do you overcome the challenge of convincing private 
industry to make that type of capital investment. Again, we 
don't know what the capital investment is yet, but to protect 
the electric grid.
    Mr. Wales. Historically, DHS has--given the fact that it 
does not have regulatory authority to compel action within the 
private sector for most critical infrastructure sectors--has 
determined that the best way for us to advance the overall 
mission is to work collaboratively with the industry, provide 
them with the information that they need to better assess how 
they can increase their protection and enhance their 
resilience. Using that type of information, hopefully, and 
owners and operators will make the capital investments that are 
best situated given the potential risk that they may face.
    For example, power operators in the southern part of the 
country are less at risk than the northern part of the country 
to geomagnetic storms. They may take a somewhat different 
perspective when it comes to investments to harden their 
systems against solar or events. But forming--partnerships, 
working with the industry and relevant other Government 
agencies, like Department of Energy, Department of Defense, 
FERC, to ensure that all available information is on the table. 
Any knowledge gained through the studies that we do, the 
research and development that is done in places like S&T and in 
the private sector are shared and the knowledge base is 
expanded.
    Mr. Long. Okay. Again, I would like to--you know, with all 
the reporting and the study and everything, if we had some 
numbers that we could--you know, they say, figures lie and 
liars figure, so if we had some decent figures to work with, it 
would sure help. Thanks for being here.
    I am proud to report that I have 30 seconds to yield back.
    [Laughter.]
    Mr. Lungren. I thank the gentleman. So I will use those 30 
seconds.
    Mr. Aimone, I feel sorry for you not having any questions 
directed to you, so I feel compelled to ask you about the 
micro-grids that you were talking about. You referred to that 
as one of the Defense Department's approaches to dealing with 
the potential of a loss of energy supply to fix facilities. How 
do you define micro-grids and how far along are you in the 
development of them?
    Mr. Aimone. Thank you very much for the question.
    What we are hoping to do with our micro-grid 
demonstrations--and we have one going on today at Twentynine 
Palms, a U.S. Marine Corps installation in California, as well 
as an installation in Texas at Fort Bliss, and several other of 
these micro-grid demonstrations--are bringing together, if you 
will, the ability to take the renewable energy resources that 
are variable in nature--the sun is out. These renewable energy 
sources can provide energy, tie these to the electrical loads 
on the base and operate, if you will, the power system of the 
base as a small electrical grid, separate from the Nation's 
grid, should that happen to be.
    In fact, what we really want to do is be able to use the 
best of the economics of the National grid when it is available 
and the micro-grid can take a look at economics associated with 
power production on base and purchasing electrical power off 
base with regards to the demands that are available that are 
occurring on the installation moment-by-moment and balance 
those electrically, such that demand and supply are achieved as 
a local grid.
    Mr. Lungren. I am not an expert on this, so forgive me. But 
in speaking with some of the operators of electrical systems in 
California, they have told me how renewable energy sources are 
the most difficult to balance because of the variability--sun, 
wind, et cetera. So maybe I just don't understand the 
technology there, but it seemed to me if you are creating a 
micro-grid that is reliant on the variabilities of the 
renewable resources--wind, solar--that is a difficult technical 
challenge and how long a fix is that?
    Mr. Aimone. Combine our renewable sources that would bring 
energy onto the installation from on-base sources with our 
demands would be the appropriate energy storage devices. We 
have demonstrations of battery technology that would, if you 
will, gap the difference between what is available from 
renewable energy and the demands required. Also would allow for 
the on-base generation that exists to be able to be ramped up 
to meet the needs if the storage system is being exhausted, yet 
the renewable sources aren't available.
    So this is a combination of demand on-base generation and 
storage.
    Mr. Lungren. I appreciate all that, and I appreciate what 
you are doing on that. But does the fact still remain that our 
fixed installations within the continental United States still 
rely primarily on energy produced from our regular electric 
grid?
    Mr. Aimone. That is a true statement. With one caveat, if I 
may, and that caveat is those critical mission loads have those 
standby generators that I was speaking to that have the 
capability of operating in times of grid outage, such that they 
could make sure that those important mission loads can be 
achieved. For example----
    Mr. Lungren. So long as the grid outage isn't beyond the 
capability of your on-installation energy production.
    Mr. Aimone. That is a true statement. So testing these 
generators to make sure that they can meet the needs of the 
loads during a simulated outage, the understanding of how much 
fuel is required, and when the fuel needs to be provided to 
those particular generators so that you always have a constant 
supply of fuel. The inherent generator itself, if it is well-
maintained and operated correctly within the parameters of that 
generator, will meet that load for as long as you have fuel to 
it.
    So we practice how do we get fuel to those generators in 
the time of an emergency, even if we have to go off-base and 
find appropriate fuel from other locations.
    Mr. Lungren. Thank you very much.
    Mr. Long, do you have any more questions?
    All right, I want to thank this panel. You have been very, 
very helpful. This is an issue that is timely and timeless and 
we appreciate your assistance. Thank you very much.
    The sole witness of our final panel today is Dr. Chris 
Beck, the president of the Electric Infrastructure Security 
Council. Dr. Beck is a policy expert in several homeland 
security-related areas, including critical infrastructure 
protection, cybersecurity, science and technology development, 
WMD prevention and protection, and emerging threat, 
identification, and mitigation. Dr. Beck holds a Ph.D. in 
physics from Tufts University, a B.S. in physics from Montana 
State University. Immediately prior to his service at EIS, Dr. 
Beck served as the minority staff director of this very 
subcommittee. We appreciate your return.
    As you know the rules as well as anybody, your written 
testimony will be entered into the record and we would ask you 
to try and summarize your testimony in 5 minutes and then we 
will ask questions.

  STATEMENT OF CHRIS BECK, PRESIDENT, ELECTRIC INFRASTRUCTURE 
                        SECURITY COUNCIL

    Mr. Beck. Well, thank you, Chairman Lungren. Thank you, 
Ranking Member Clarke. Thank you, Mr. Long. It is good to be 
back before the committee. It is a little disorienting to be on 
this side of the witness table, but I will do the best I can.
    As you mentioned, I started looking at these issues while a 
member of this committee, and it was because of the seriousness 
of this issue that I moved to the Electric Infrastructure 
Security Council to focus on this issue full-time. So I very 
much appreciate this committee holding this hearing and giving 
this issue your attention.
    The Electric Infrastructure Security Council's mission is 
to work in partnership with Government and corporate 
stakeholders to host National and international education, 
planning, and communication initiatives to help coordinate 
infrastructure protection against electromagnetic threats.
    We are happy and proud to co-host the Electric 
Infrastructure Security Summit series, the annual international 
government NGO summits on infrastructure security. The third 
annual summit took place on May 14 and 15 this year in the 
United Kingdom's houses of parliament in London. Ranking Member 
Clarke was one of the U.S. bipartisan co-chairs of this event, 
along with Representative Trent Franks, who you heard from 
earlier.
    The summit was a gathering of senior government 
representatives, scientists, and industry executives from 21 
countries. The conclusions and recommendations that we 
discussed should be of great interest to this committee. I have 
provided the full summary report and my testimony is a quick 
summary of that.
    We have covered a lot of the ground, so I don't think I 
need to describe the problem, the severity, or the lack of 
specificity of the timing of these events. The key questions we 
asked at the Electric--at the summit were, ``Should we respond 
to these threats?'' ``If so, what is the path forward?'' ``Who 
should be involved?'' ``And how broad should our response be?''
    ``Should we respond'' was a resounding, ``yes.'' There is 
certainly enough evidence known and enough identified 
vulnerability that the delegates felt it is time to move 
forward.
    ``What is the path to move forward?'' A much more difficult 
question. We arrived at a couple of things. One is to define 
and apply interconnect-wide standards and protection plans and 
to pursue two paths to implementation. One, is validate and 
implement specific cost-effective protection measures. Two, is 
to prioritize scope and timing of protective measures by 
expanded hardware and interconnect-wide modeling prioritization 
and data collection.
    ``Who should be involved?'' The sense of the summit 
participants is the broader the community, the better the 
result that we are going to get. So while this issue initially 
was, as Mr. Wales said, identified by the EMP Commission and it 
was initially looked at as a government question, we need 
participation from government, from commercial power suppliers, 
insurance companies, other stakeholders that can each 
contribute in their own area of expertise.
    ``How broad should our scope be?'' We have discussed both 
naturally-occurring instances of geomagnetic disturbances and 
malicious EMP, and the consensus again was that both need to be 
addressed.
    I am happy to go into any of these points in greater detail 
as we move forward. I would like to note that there appear to 
be no significant technical or financial barriers to mitigating 
this threat. The technologies needed are well understood and 
the cost based on both government estimates and recent 
corporate experience is quite low. Going back to questions 
raised by Mr. Long. So I think that cost-effective measures are 
available.
    This concludes my prepared testimony. I look forward to 
answering any questions.
    [The statement of Mr. Beck follows:]
                    Prepared Statement of Chris Beck
                           September 12, 2012
    Good morning Chairman Lungren, Ranking Member Clarke, and Members 
of the subcommittee. Thank you for holding this hearing on what I 
consider to be one of the greatest threats to our National and homeland 
security. As many of you know, before I became EIS Council's President, 
I worked for this committee, focusing on Critical Infrastructure 
Protection and Science and Technology issues. It was through that work 
that I first became aware of the threats facing our critical electric 
infrastructures, and I found the issue to be so important that I felt 
compelled to focus on it exclusively.
    The Electric Infrastructure Security Council's mission is to work 
in partnership with Government and corporate stakeholders to host 
National and international education, planning, and communication 
initiatives to help coordinate infrastructure protection against 
electromagnetic threats (e-threats). E-threats include naturally-
occurring geomagnetic disturbances (GMD), high-altitude electromagnetic 
pulses (HEMP) from nuclear weapons, and non-nuclear EMP from 
intentional electromagnetic interference (IEMI) devices.
    EIS Council is also proud to co-host the Electric Infrastructure 
Security Summit Series, the annual international government/NGO summits 
on infrastructure security. The third annual summit took place on May 
14 and 15 this year, in the United Kingdom's Houses of Parliament in 
London. Ranking Member Clarke was one of the U.S. bipartisan co-chairs 
of that event, along with Rep. Trent Franks. This summit was a 
gathering of senior government representatives, scientists, and 
industry executives from 21 countries. The conclusions and 
recommendations that we discussed should be of great interest to this 
committee. The full report has been provided to the committee as an 
addendum to my testimony, and I include the summary here.
              summary of major themes and recommendations
Defining the Issue
    The Problem.--Developed nations are vulnerable to serious National 
power grid damage from e-threats, both natural and malicious.
    The Severity.--The impact will range from, at minimum, a serious 
financial and economic crisis to, at maximum, a catastrophe that would 
threaten societal continuity.
    The Timing.--For severe space weather, the most recent events 
occurred 90 and 150 years ago, but the precise timing of the next such 
occurrence, as with all extreme natural disasters, is unknown. For 
malicious EMP, either local (non-nuclear) or sub-continental (nuclear), 
a strike could be induced by on-going vulnerability coupled with 
rapidly changing geopolitical realities.
The Key Questions
    1. Should we respond to e-threats? Should we accept the status quo, 
and minimize near-term costs by accepting growing vulnerability, or 
begin reducing vulnerability?
    2. If we respond, what is the path? How should we address 
interconnect-wide interdependence, and how should we proceed with 
implementation?
    3. If we respond, who should be involved? Who should take 
responsibility to define the path, and implement it?
    4. How broad should our response be? Should both GMD and EMP be 
included?
The Response: Consensus Recommendations
    1. Should we respond? A common theme of the summit deliberations, 
broadly accepted in all presentations and discussions, was that the 
risks associated with severe e-threats are serious, and it is time to 
begin taking positive actions to protect critical infrastructures.
    2. What is the path? The broad consensus of summit presenters and 
other delegates was that we need to establish interconnect-wide 
standards and plans. For implementation, we should begin working 
aggressively to validate and implement specific protection measures, 
while also pursuing expanded modeling, priority assessment, and 
planning. More specifically:
    a. Define and apply interconnect-wide standards and protection 
        plans.--We should define and apply applicable interconnect-wide 
        e-threat protection standards, through regulatory or other 
        means, and develop implementation plans that include 
        prioritized protection for critical assets.
    b. Pursue two paths to implementation.--
        1. Validate and implement specific, cost effective protection 
            measures.
        We should thoroughly evaluate protective measures to validate 
            that they support the e-threat standards, including both 
            procedural and hardware-based measures (e.g., transformer 
            or other hardware design upgrades, current blockers, series 
            capacitance and power substation IEMI protection).
        If expectations for high effectiveness and low-cost hardware-
            based protection can be tested and demonstrated, this will 
            become a core approach to mitigation, beginning with 
            development of interconnect-wide protection planning.
        2. Prioritize scope and timing of protective measures by 
            expanded hardware and interconnect-wide modeling, 
            prioritization, and data collection.
        We should also pursue a path of data collection, hardware 
            vulnerability modeling and grid impact modeling, and define 
            critical, high-value asset protection priorities. This 
            process will guide and prioritize cost-effective 
            implementation measures. It will be even more vital in 
            those cases where more expensive measures are needed.
    3. Who should be involved? The sense of summit presenters and 
delegates was that assembling and implementing a plan for e-threat 
protection will require the broadest possible participation among 
government agencies, commercial power suppliers, insurance companies 
and other stakeholders, each contributing in its own domain of 
authority and expertise. A common theme of all the discussions: The 
need to work toward international partnerships in developing these 
plans.
    4. Addressing EMP and IEMI: How broad should our scope be? These 
recommendations, it became clear, will be essential for both aspects of 
e-threats, both natural--Severe Space Weather, and malicious--IEMI and 
EMP. In fact, another common theme at the summit was that, in focusing 
on space weather, there has been insufficient attention given to the 
needs for protection against malicious EMP and IEMI threats. In this 
regard, all the security-related speakers were quite clear: Security 
forces cannot perform their National security and protection mission 
without the partnership of commercial power suppliers, who will need to 
``expand their resilience into a new hazard environment.'' The hope 
that the government could handle either the natural or malicious threat 
domain on its own was rejected, with the clearest articulation of this 
reality coming from speakers who represented the responsible government 
departments and agencies.
    This summary of summit consensus-based themes and recommendations 
reflects many detailed comments made in the presentations and 
discussions during summit events. I would welcome the opportunity to 
discuss any of these points in greater detail.
    I should note that there appear to be no significant technical or 
financial barriers to mitigating this threat--the technologies needed 
are well understood, and the cost--based on both government estimates 
and recent corporate experience--is quite low, even in comparison with 
just existing logistics and maintenance budgets for affected equipment. 
Rather, the primary needs seem to be for education to increase 
awareness and willingness to address the problem, and for coordination 
to address the complex government and corporate administrative 
structures of even the most critical infrastructures.
    This concludes my prepared testimony, and I'd be happy to answer 
any questions.

    Mr. Lungren. Thank you very much, Dr. Beck. Again, good to 
have you back here.
    Mr. Beck. Thank you.
    Mr. Lungren. Maybe I will follow along on Congressman 
Long's earlier statements. There have been some generalized 
statements about how there is no significant financial 
barrier--so I guess the question I would ask is this, if there 
is no significant technical or financial barriers to mitigating 
this threat, what is the difficulty?
    I am not trying to cast aspersions on the industry at all. 
I think the industry is, by and large, is one of the primary 
providers of the standard of living we have today and the way 
of life we have today. The consistency and reliability of the 
systems is actually remarkable when you think about it. It goes 
to the question--you turn the light switch on. It only comes to 
your attention if it doesn't go on when you turn that light 
switch.
    We take it for granted. That is the way we live. That is 
what we rely on. That is our expectation. Something so 
essential to our needs would seem to require heightened 
attention. If it is as apparent as many have suggested and the 
studies have concluded that we have significant 
vulnerabilities, either natural or man-made, the question would 
be, why aren't we taking these steps?
    My partial is--and I would ask yours--that we haven't 
raised the awareness to the level that the public would accept 
rate increases that would allow for the capitalization of the 
technical fixes that are necessary. So that is one of the 
obligations that I think we have.
    But we have talked in general terms about how we have got 
technical fixes and how we have technical fixes within our 
fiscal grasp, I guess I would say. Can you put some meat on the 
bones on that? Can you give us some idea from the work that was 
done at these conferences to suggest the ballpark that Mr. Long 
asked about? Or is there some other gauge that you can give us 
that would show the appropriateness of applying these fixes to 
the current system?
    Mr. Beck. Yes, I think I can do that. Going back to the 
original question is: What is the disconnect or why don't we 
know about this? I think part of it is just a question of human 
nature. It is that there are--when you have certain events that 
don't happen very often and they are things that we don't see, 
then we fail to plan for those.
    When we designed the grid and built it over the last 100 
years, there wasn't the consistent level of disruption from 
solar storms. In other words, lower-level solar storms do 
happen all the time. Any time the aurora borealis that you see 
it--that is, in effect, a geomagnetic disturbance. So there are 
low-level events all the time. So the grid was able to deal 
with those. We haven't see the very high-level events and when 
the grid wasn't designed for that purpose, there is a certain 
inertia both mental and physical that comes in with saying we 
designed the grid. I know how this works. We have optimized it. 
We are happy with its performance. Trying to move beyond that 
sometimes is difficult.
    Going to the question of costs--and you mentioned 
capitalization, which I think is important. So taking the EMP 
Commission report estimate of about a billion dollars for 
mitigation for transformers that both Mr. Wales and Mr. 
McClelland talked about. You take that the step further and 
say, well, the transformer is a 30- to 50-year asset. They have 
a long lifetime, as opposed to other components on the grid, 
electronics and stuff that are replaced much more frequently.
    So if you have a 30-year asset and a billion dollars, you 
are talking about $33 million or so a year. That breaks down 
to, you know, a few cents per citizen that we would have to 
pay. So your job and your two concerns, especially on this 
panel, are providing for security and protection of the public; 
but also you have a fiscal responsibility that you don't want 
to stick the citizens with an enormous bill that doesn't make 
sense. But when you run some of those numbers, especially when 
you are talking about the transformers and the fact that those 
assets last for a long time, you can spread those costs out and 
make them nearly insignificant to the ratepayer or the 
taxpayer.
    Mr. Lungren. Those are your words. I can never say that 
there is an insignificant cost to taxpayers, but I understand 
the point that you make.
    The gentlelady from New York is recognized.
    Ms. Clarke. Thank you very much, Mr. Chairman. Let me first 
say, Mr. Chairman, or ask if we could ask for unanimous consent 
that the EIS summit three London report, a summary of the third 
Electric Infrastructure Security summit held this summer in 
London be placed in the record.
    Mr. Lungren. Without objection.*
---------------------------------------------------------------------------
    * The information has been retained in committee files and is 
available at http://www.eissummit.com/images/upload/conf/media/
EISS%20III%20London%20Report.pdf.
---------------------------------------------------------------------------
    Ms. Clarke. I think its findings and conclusions will 
benefit the record of this hearing.
    Dr. Beck, in your recent London conference, there were 
representatives from business and industry, in addition to 
governments. Can you describe the conversations and discussions 
about how the insurance industry is viewing EMP--excuse me--and 
the geomagnetic disturbances in the electric industry?
    Mr. Beck. Yes. This was one of the significant new or 
differences--thankful one--between the prior conferences that 
we have had. So this was our third summit. The first summit in 
London was pretty much a government-only event and the second 
one--and you know this very well, Ms. Clarke--we had some 
expanded participation. We had a half-day where we had industry 
roundtables and we talked to the electric grid operators.
    But Lloyd's of London, for example, 2010, did a report on 
space weather. So they had been reading the same reports, and 
so we had a panel at the summit and you can see a lot of the 
highlights of that in the report that you just referenced. So 
the interest is there that Lloyd's insures not just the assets 
directly, but we talked about earlier, the economic disruption 
overall of a power outage.
    Joe McClelland talked about the $2 billion estimate for the 
Quebec outage. In the 2003 northeast blackout, not a GMD event, 
but still instructive because it was a power outage of 1-3 
days, depending on where you were in that blackout zone. The 
after-action report was about $14 billion in societal costs.
    So when an insurance company, whether they are insuring an 
electric grid operator and his assets or a major power consumer 
that is manufacturing or any other major player that has 
insurance, when effects like geomagnetic disturbance impact 
electric grid and the continuous supply of electricity, 
especially for high-precision manufacturing that really rely on 
that, there are insurance effects. So the insurance companies 
looked at this. They said, we think that we need to take a 
deeper dive.
    You know, they didn't come back with any conclusions. We 
know what GMD costs. We are ready to have a GMD insurance 
package. They are not there yet, but I would recommend to the 
members and staff that the Lloyd's report would help to give 
some of those--put the meat on the bones, as Mr. Lungren put 
it.
    Ms. Clarke. Is the council proposing international 
standards for EMP and the geomagnetic disturbance mitigation? 
Who would oversee such an effort?
    Mr. Beck. The council acts as a host to the discussion, so 
we are summarizing the discussions and recommendations. So I 
wouldn't say that we are proposing international standards, but 
those were called for by many of the members there.
    So a lot of the, you know, the sophisticated electric grids 
are located in North America and Europe, northern Europe. So 
that was the bulk of the participants there and so the grids 
there have some interconnection. I mean, the grid doesn't just 
end, you know, at the border of France, and a brand new grid in 
Spain. There is some crosstalk there, like we have across State 
lines here. So there is interest there to say, well, we are 
all, you know, we all have a connection, just like we all have 
a connection here in the United States to each other.
    So a standard or goal to be set for reliability and 
operation under a geomagnetic disturbance or protection 
modalities for EMP--the individual operators recognize that a 
standard that they could look to would be very helpful. Because 
otherwise, they, you know, look at, well, what does the threat 
mean and I will do my best. I will give my best engineering 
judgment to apply that to my section of the grid. But in an 
interconnected system, you know, you always have the question 
of, well, what if I do something and the guy next to me does 
nothing? Is that worth the investment? Because I am still 
vulnerable and I don't have any control over that grid next to 
me.
    So that was the point where international standards--or in 
the United States, National standards, or I guess it is a bit 
broader, because we include Canada and parts of Mexico here--
but those types of standards so that everyone has some common 
goal and common understanding of the issue. Everyone suggested 
that that was very important.
    Mr. Lungren. Thank you very much. I guess Mr. Long has 
gone.
    So I thank you for your testimony, Mr. Beck. Once again, 
thank you for your participation on this committee in your 
major staff positions. Congratulations on the Council's work.
    I thank you and all the other witnesses for the valuable 
testimony and the Members for their questions. The Members of 
the committee may have some additional questions, as you know, 
for you and the other witnesses. We will ask you to respond to 
these in writing. The hearing record will be held open for 10 
days. The subcommittee stands adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

  Questions From Ranking Member Yvette D. Clarke for Joseph McClelland
    Question 1. Are there any areas--in infrastructure, programs, or 
research--that seem urgently in need of attention regarding a 
Geomagnetic Disturbance threat?
    If you could affect one change in current arrangements for managing 
the risks of severe space weather and geomagnetic disturbance events, 
what would that be?
    In other words, what development in the current system of space 
weather risk management would yield the greatest benefit with the least 
cost?
    Answer. Yesterday, the Commission issued a proposal to address the 
impacts of GMD on the electric grid. This proposal stems from the 
technical conference held by the Commission on April 30 of this year, 
which explored the risks and impacts from geomagnetically-induced 
currents to transformers and other equipment on the bulk power system, 
as well as options for addressing or mitigating the risks and impacts.
    In the proposed rule discussed above, the Commission proposes to 
direct the North American Electric Reliability Corporation (NERC) to 
submit for approval Reliability Standards that address the impact of 
geomagnetic disturbances (GMD) on the reliable operation of the Bulk-
Power System. The Commission proposes to do this in two stages. In the 
first stage, the Commission proposes to direct NERC to file, within 90 
days of the effective date of a final rule in this proceeding, one or 
more Reliability Standards that require owners and operators of the 
Bulk-Power System to develop and implement operational procedures to 
mitigate the effects of GMDs consistent with the reliable operation of 
the Bulk-Power System. In the second stage, the Commission proposes to 
direct NERC to file, within 6 months of the effective date of a final 
rule in this proceeding, one or more Reliability Standards that require 
owners and operators of the Bulk-Power System to conduct initial and 
on-going assessments of the potential impact of GMDs on Bulk-Power 
System equipment and the Bulk-Power System as a whole. Based on those 
assessments, the Reliability Standards would require owners and 
operators to develop and implement a plan so that instability, 
uncontrolled separation, or cascading failures of the Bulk-Power 
System, caused by damage to critical or vulnerable Bulk-Power System 
equipment, or otherwise, will not occur as a result of a GMD. This plan 
cannot be limited to operational procedures or enhanced training alone, 
but should, subject to the needs indentified in the assessments, 
contain strategies for protecting against the potential impact of GMDs 
based on factors such as the age, condition, technical specifications, 
or location of specific equipment. These strategies could include 
automatically blocking geomagnetically-induced currents from entering 
the Bulk-Power System, instituting specification requirements for new 
equipment, inventory management, and isolating certain equipment that 
is not cost-effective to retrofit. This second stage would be 
implemented in phases, focusing first on the most critical Bulk-Power 
System assets.
    Current GMD forecasting methods provide limited time for operators 
to react once a GMD warning is issued. I am concerned with the short 
period of time to react to a GMD event and the potential consequences 
of not reacting fast enough. The Commission's proposed rule would first 
ensure that appropriate operational procedures to mitigate GMD are in 
place in a relatively short time frame, then turn to implementation of 
a plan so that instability, uncontrolled separation, or cascading 
failures of the Bulk-Power System, caused by damage to critical or 
vulnerable Bulk-Power System equipment, or otherwise, will not occur as 
a result of a GMD.
    Question 2. What is FERC currently doing to address EMP and 
Geomagnetic Disturbance threats?
    Answer. See question 1.
    Question 3. As I understand, there are two risks that result from 
the introduction of ground-induced currents from a geomagnetic 
disturbance to the bulk power system: (1) Damage to the bulk power 
system assets, like transformers, and (2) Loss of reactive power 
support, which could lead to voltage instability.
    How does the Commission oversee that operators of the grid address 
these risks in a responsible and comprehensive way?
    Answer. The proposed rule issued yesterday would take short-term 
and long-term steps to protect the electric grid from a geomagnetic 
disturbance. The Commission's proposed two-phase approach recognizes 
this difference by focusing first on the development of Reliability 
Standards requiring operational procedures in a relatively short time 
frame. The Commission proposes to give NERC and owners and operators of 
the Bulk-Power System more time to perform, in the second phase, 
initial and on-going assessments and, based on those assessments, to 
develop and implement a plan so that instability, uncontrolled 
separation, or cascading failures of the Bulk-Power System, caused by 
damage to critical or vulnerable Bulk-Power System equipment, or 
otherwise, will not occur as a result of a GMD.
    Question 4. NERC has outlined several recommendations in their GMD 
report--what is the Commission's process or approach to implement or 
facilitate their recommendations?
    Answer. In addition to proposing that NERC develop Reliability 
Standards that require operational procedures during the first phase, 
the Commission's proposal also would accept aspects of the ``Initial 
Actions'' proposal set forth in NERC's post-Technical Conference 
comments.
    Question 5. Do you think each utility should have spare 
transformers to be prepared in case of a solar Geomagnetic Disturbance 
event? Who should pay for these spare transformers and what is the 
cost?
    Answer. There should be some spare transformers for the Bulk-Power 
System to recover from geomagnetic disturbances as well as from many 
other risks (e.g., lightning, voltage surges, and fault conditions). 
However, spare transformers alone are not sufficient to address GMDs. 
During a GMD, geomagnetically-induced currents flowing through 
transformers cause those transformers to operate in a manner for which 
they are not designed (typically described as half-cycle saturation). 
As question 3 above notes, two results of this abnormal operation are 
equipment damage and loss of reactive power support. In addition, the 
affected transformers introduce disruptive harmonics into the power 
grid. The harmonics can be thought of as ``noise'' on the power grid. 
This ``noise'' can cause switching equipment to misoperate (opening or 
closing when they should not) and other equipment damage, most notably 
damage to generators. The risks from loss of reactive power support and 
from harmonics would not be mitigated by spare transformers. Steps such 
as preventing half-cycle saturation from occurring would be necessary 
in order to avoid these risks.
    Maintaining spare equipment is a time-tested method of improving 
electric reliability, and typically is a legitimate cost of providing 
service. The cost of a spare extra-high voltage (EHV, typically over 
300kV) transformer varies depending on many design features, including 
the operating voltages and the power rating of the transformer. 
However, a ball-park range would be $10 million to $15 million for a 
typical three-phase EHV transformer.
      Questions From Chairman Daniel E. Lungren for Brandon Wales
    Question 1. What is DHS' 90-day, 1-year, and 5-year plan to address 
the threat posed by EMP?
    Answer. Signed March 30, 2011, Presidential Policy Directive-8 
(PPD-8) seeks to strengthen security and resilience through systematic 
preparation for threats that pose the greatest risk to the Nation. As a 
part of PPD-8 implementation and from a Whole Community approach, the 
Federal Emergency Management Agency (FEMA) is leading the development 
of a National Planning System (NPS) that integrates planning across all 
levels of Government and with the private and non-profit sectors around 
key capabilities to address all-hazard threats. This work will result 
in a set of focused planning documents that support the effective 
delivery of core capabilities across the Whole Community to address 
all-hazards, including those posed by Electromagnetic Pulses (EMP) due 
to space weather or nuclear incidents.
    As a component of PPD-8, the Federal Interagency Operational Plan 
(FIOP)-Response is an all-hazards plan that describes how the Federal 
Government supports State, local, Tribal, territorial, and insular area 
efforts to save lives, protect property and the environment, and meet 
basic human needs following an emergency or disaster, such as EMP 
impacts. The FIOP-Response delineates Federal response roles and 
responsibilities; identifies critical tasks, resources, and sourcing 
requirements necessary to deliver the Response Core Capabilities; and 
coordinates statutory authorities across governments.
    While this plan is based on a no-notice catastrophic incident that 
spans multiple regions and States, it will also contain incident-
specific annexes as required. For example, FEMA has scheduled 
development of a ``Long-Term Power Outage Annex'' for fiscal year 2014. 
The FIOP-Response will also be updated 18 months after initial 
signature with quadrennial re-writes thereafter.
    Question 2. The Department of Homeland Security does not include 
the threat of EMP attack in its 15 National Disaster scenarios. Why 
not?
    How is DHS protecting the homeland against EMP? Is it enough?
    Answer. Under Presidential Policy Directive-8 (PPD-8), the 15 
National Planning Scenarios were replaced by a new National 
Preparedness System based on the Strategic National Risk Assessment 
which identified incidents that posed the greatest threat to the 
Nation. Electromagnetic radiation from space weather was included as a 
National-level event that could test the Nation's preparednesss. PPD-8 
includes five integrated National planning frameworks and interagency 
operational plans. As stated under the response to Question No. 1, the 
Federal Interagency Operational Plan (FIOP)-Response is a component of 
PPD-8. The FIOP-Response is an all-hazards plan that describes how the 
Federal Government supports State, local, Tribal, territorial, and 
insular area efforts to save lives, protect property and the 
environment, and meet basic human needs following an emergency or 
disaster, such as those with EMP threats. While this plan is based on a 
no-notice catastrophic incident that spans multiple regions and States, 
it will also contain incident-specific annexes as required. For 
example, FEMA has scheduled development of a ``Long-Term Power Outage 
Annex'' for fiscal year 2014. The FIOP-Response will also be updated 18 
months after initial signature with quadrennial re-writes thereafter.
    Question 3. By virtue of how our economy is structured, most 
electric and other critical infrastructure is privately owned. How do 
you overcome the challenge of convincing private industry to make the 
capital investments required to secure the electric grid?
    Answer. The Department of Homeland Security (DHS) works with 
industry in a number of ways to promote appropriate security 
investments. The National Infrastructure Simulation and Analysis Center 
(NISAC) prepares and shares analyses of critical infrastructure, 
including their interdependencies, vulnerabilities, consequences, and 
other complexities, under the direction of the Office of Infrastructure 
Protection's Infrastructure Analysis and Strategy Division.
    Additionally, DHS coordinates unclassified and classified briefings 
and workshops for industry and works to analyze their vulnerabilities 
and demonstrate potential impacts and costs if those vulnerabilities 
are left unaddressed. To facilitate discussions of this type, DHS 
administers the Critical Infrastructure Private Sector Clearance 
Program (PSCP). The PSCP sponsors clearances for private-sector 
partners that are responsible for critical infrastructure protection 
but would not otherwise be eligible for a clearance. Through these 
activities, private-sector partners become better positioned to make 
more informed security investments.
    Question 4. How much do you or does your agency rely upon data from 
NOAA's ACE satellite for warnings about naturally-occurring EMPs?
    Question 5. Are you aware that this satellite is well past its 
expected lifetime, and already operating at a severely diminished 
capacity?
    Answer. The Federal Emergency Management Agency (FEMA) relies on 
space weather information and warnings from NOAA's Space Weather 
Prediction Center (SWPC), which uses data from the ACE satellite. FEMA 
benefits from the SWPC's real-time monitoring and forecasting of solar 
and geophysical events, which could impact satellites, power grids, 
communications, navigations, and other systems. FEMA is aware of the 
ACE satellite's current state and the fiscal year 2014 mission planned 
to replace it.
    Question 6. Are you aware of NOAA's plans and time line to replace 
the failing ACE spacecraft with the refurbished DSCOVR spacecraft?
    And, the naturally-occurring EMP warning needs of your agency?
    Answer. The Federal Emergency Management Agency (FEMA) is aware of 
NOAA's plans and time line to replace the ACE spacecraft with DSCOVR. 
FEMA liaisons regularly communicate with the National Weather Service 
and, more specifically, the Space Weather Prediction Center (SWPC). 
FEMA relies on SWPC's real-time monitoring and forecasting of solar and 
geophysical events, which could impact satellites, power grids, 
communications, navigations, and other systems. NOAA and the SWPC have 
communicated to FEMA the ACE satellite's vulnerabilities and their 
plans to address it.
    Question 7. How would your agency's ability to meet its mission 
requirements be effected if ACE were to completely fail before DSCOVR 
is operationally on-orbit?
    Answer. Failure of the ACE satellite would only impact the Federal 
Emergency Management Agency's (FEMA) actual operations if such failure 
led to delays in critical information or warnings. To respond to a 
space weather event, FEMA would implement its response plans in 
accordance with the Stafford Act and the National Response Framework. 
Delays in space weather-related information or warnings could 
theoretically delay implementation of preventative or early response 
actions.
    Questions From Ranking Member Yvette D. Clarke for Brandon Wales
    Question 1a. I understand that your office includes analysts from 
the Office of Infrastructure Protection and the Office of Intelligence 
and Analysis.
    Could you outline for us how HITRAC creates actionable risk-
informed analysis for EMP or geomagnetic disturbance threats?
    Question 1b. In other words, what kind of input information, in 
generally do you use in the risk analysis of geomagnetic disturbances 
or EMP threats?
    Question 1c. To whom would you report this analysis for action on 
EMP-specific threats?
    Answer. There are several reports that analyze the threat posed by 
electromagnetic pulse (EMP) and geomagnetic disturbances. The 2011 and 
2012 National Risk Profiles identify what sectors are most at-risk from 
geomagnetic disturbances and what systems are in place to warn of an 
impending space weather event. A 2010 HITRAC study performed by the 
National Infrastructure Simulation and Analysis Center analyzed the 
impact of EMP on extra high-voltage power transformers. Additionally, a 
2010 National-Level Exercise looking at the effects of an improvised 
nuclear device touched upon the impacts of an EMP from a nuclear 
attack. At this time, the Department of Homeland Security has not 
performed a comprehensive study analyzing how different inputs would 
change how critical infrastructure is affected.
    Question 2. I see that within Infrastructure Protection, risk 
analysis, modeling, simulation/analysis and incident planning and 
response are bundled together as part of an overall package for 
Critical Infrastructure and Key Resources protection.
    Are EMP and geomagnetic disturbance considered a discreet separate 
threat or are they combined in an all-hazards analysis approach?
    Answer. Electromagnetic pulse (EMP) and geomagnetic disturbance are 
considered discreet and separate threats. The 2011 and 2012 National 
Risk Profiles have separate Space Weather sections. A National 
Infrastructure Simulation and Analysis Center report highlighted 
threats from EMP and geomagnetic disturbance and considered them to be 
separate from other hazards. Also, studies analyzing the impacts from 
the detonation of a nuclear device include analysis on the effects from 
the resulting EMP.
    Question 3. I understand that within DHS, under the National 
Infrastructure Protection Plan, the Office of Infrastructure Protection 
oversees three key elements of the Risk Management Frameworks:
    i. Identification of critical infrastructure assets and systems;
    ii. Risk assessment based on event consequences, facility or system 
        vulnerabilities, and known or probable threats; and
    iii. Prioritization of CIKR protection activities based on risk.
    How is the U.S. grid identified or described in this framework (or 
is it identified), what are the risk assessment levels, and what 
prioritization is listed for EMPs and geomagnetic disturbances threats 
to the grid?
    Answer. Electric power is identified as a subsector of the energy 
sector and includes power plants and the electric grid. Infrastructure, 
including the electric grid, is not prioritized based on 
electromagnetic pulse or geomagnetic disturbances, but rather is based 
on the National Critical Infrastructure Prioritization Program (NCIPP) 
outlined in the National Infrastructure Protection Plan. NCIPP 
identifies Nationally significant critical assets and systems to 
enhance decision making related to critical infrastructure protection. 
Critical infrastructure identified includes those that, if destroyed or 
disrupted, could cause some combination of significant casualties, 
major economic losses, or widespread and long-term disruptions to 
National well-being and governance capacity.
    Question 4. Do you think each utility should have spare 
transformers to be prepared in case of a solar geomagnetic disturbance 
event? Who should pay for these spare transformers and what is the 
cost?
    Answer. The Department has not taken a position on whether 
utilities should have spare transformers and if so who should bear the 
cost. The Department recognizes that redundancy can add resilience to 
infrastructure systems. In the event of a major electromagnetic pulse 
or geomagnetic disturbance, the current quantity of spare transformers 
could be insufficient if enough transformers were physically damaged. 
There is no regulatory requirement that utility companies maintain 
spare transformers, though some currently do at their own expense.
    More needs to be learned about the effects of large GMD on major 
transformers. Stockpiling spares would be costly and not easy to do 
generically since transformer needs vary and their massive weight make 
them difficult to move.
    The DHS Science & Technology Directorate has worked with industry 
to jointly develop a prototype extra high-voltage (EHV) transformer 
that is easier to transport and quicker to energize than conventional 
EHV transformers to enable rapid recovery from such events. Known as 
the Recovery Transformer (RecX), a pilot demonstration was successfully 
conducted in March 2012 in which the RecX was transported, installed, 
and energized in less than 1 week. The RecX is currently operational in 
the grid for a 1-year monitoring period. DHS S&T and RecX project 
partners are working on transition plans for RecX with various 
stakeholders, including Federal partners & private industry.
    Questions From Chairman Daniel E. Lungren for Michael A. Aimone
    Question 1. How has the U.S. military sought to protect its 
satellites, weapons, and other equipment against an EMP attack?
    Since many U.S. military facilities are dependent on the U.S. 
electric grid, what steps has the U.S. military taken to protect its 
capabilities in the event of an EMP attack? Are these steps relevant to 
the protection of the U.S. electric grid?
    Answer. Since the 1960s the Department of Defense (DoD) has been 
conducting on-going research focused on defining the nature of the 
electromagnetic pulse (EMP) threat, its effect on systems, and ways to 
protect both military assets and infrastructure against EMP threats. 
Mission-critical military systems are required to be hardened against 
the High-Altitude EMP (HEMP) threat specified in MIL-STD-2169, the HEMP 
threat environment, in accordance with DoDI 3150.09, CBRN Survivability 
Policy. Although there are several types of EMPs, HEMP is considered to 
be the primary threat to military assets. Military standards for 
protecting strategic C4I ground-mobile systems, fixed facilities, and 
aircraft have been enacted and standards for protecting maritime assets 
against nuclear HEMP and satellites against other nuclear weapon 
effects environments are currently being developed. Transportable and 
mobile military systems are powered by mobile generators which are 
hardened against the HEMP threat. Similarly, military ground (fixed) 
facilities performing mission-critical functions use EMP-hardened 
commercial power. If the commercial power source is unavailable (e.g. 
due to power grid outages), these facilities rely on HEMP-hardened 
backup generators.
    Many EMP hardness protection methods and commercially available 
protection devices are generally applicable for use in protecting 
elements of the U.S. electric grid such as the universal Supervisory 
Control and Data Acquisition (SCADA) equipment which may be susceptible 
to and should be hardened against early-time HEMP. SCADA is a type of 
industrial control system (ICS). Industrial control systems are 
computer controlled systems that monitor and control industrial 
processes that exist in the physical world. SCADA is critical to normal 
functioning of the grid. In addition, due to the unique nature of the 
grid, such as transmission of electric power over very long 
transmission lines containing numerous transformers and other high-
voltage devices, the grid may be vulnerable to late-time effects of 
HEMP. The DoD's DTRA recently have been conducted two experimental 
research efforts at the Department of Energy's Idaho National 
Laboratory to define the nature and extent of late-time EMP effects on 
typical elements of the power grid and on protecting the grid against 
late-time HEMP.
    DoD does not harden all military systems, but just those systems 
deemed to be mission-critical that are expected to operate in a nuclear 
environment. DoDI 3150.09, CBRN Survivability Policy, is the tool used 
to identify those systems.
    Question 2. Have the effects of an EMP attack, solar storm, or 
other long-term disruption (such as the derecho) on the civilian 
recovery sectors (i.e., hospitals, police, fire departments) been 
adequately investigated and planned for? What about similar impacts on 
DoD assets and missions?
    Answer. Lessons-learned from DoD hardening is applicable to 
civilian infrastructure, but the civilian infrastructure is not in 
DoD's mission space. DoD plans to operate mission-critical systems as 
necessary without civilian infrastructure. It is probably cost-
prohibitive to harden all civilian infrastructure but it might be cost-
effective to harden critical nodes such as SCADA. Overall, DoD has no 
responsibility to harden civilian infrastructure.
    Based on results of past studies and limited HEMP testing, the 
effects of an EMP attack on the civilian recovery sectors (emergency 
services) may not, in some areas, be adequately planned for. The 
Congressional Commission on EMP Attack on the U.S. conducted a HEMP 
effects study on the emergency services sector in 2002-2003. The study, 
based on site visits, analyses, and limited testing, illustrated the 
effects of plausible HEMP threats and scenarios on typical components 
of the sector including a preliminary vulnerability assessment of HEMP 
events on Public Safety Answering Points (PSAPS). While the PSAP 
facilities visited had lightning protection, they were not directly 
protected against the effects of HEMP. Limited HEMP testing was 
performed on actual (or similar) components in PSAP facilities and 
equipment used by the emergency services sector such as computers, 
hand-held radios, and a police vehicle.
    In general, unhardened DoD assets and computer networks are 
vulnerable to high-level HEMP (e.g. <10kV/m). To the extent that DoD 
relies on unhardened assets to perform specific missions, these 
missions are at risk. Strategic missions, in general, rely on HEMP-
protected assets. Non-strategic missions may rely on unhardened assets.
    Question 3a. While the term ``energy security'' has been in vogue 
amongst policymakers, it is mainly used in terms of sustainability and 
alternative energy sources (i.e. freedom from foreign oil) rather than 
resiliency and counter-terrorism applications. Have the Departments of 
Defense and Homeland Security been directing their regulatory attention 
more towards these issues rather than securing its energy sources, 
particularly electricity, against the effects of a long-term 
disruption?
    Answer. The Department of Defense defers to the Department of 
Homeland Security to provide the subcommittee with a description of the 
status of the U.S. Government's efforts to plan for EMP, solar storm, 
or long-term disruption effects on the civilian recovery sectors. The 
Department is largely in a supporting role to the lead civilian 
authorities in any event to mitigate the consequences of or remediate 
after an EMP attack, solar storm, or long-term disruption event in the 
homeland. DHS is the lead agency for National Critical Infrastructure 
Protection and leads the U.S. Government's contingency response plan 
efforts to mitigate the consequences of or remediate after an EMP 
attack, solar storm, or long-term disruption event. However, the 
Department of Defense is a significant stakeholder, and the 
Department's ability to perform its National security functions is 
largely dependent upon the reliability and resilience of the commercial 
electric power grid.
    Question 3b. If so, are there plans to broaden your interpretation 
of energy security?
    Answer. The Department is pursuing comprehensive energy security 
strategies through the Energy Grid Security Executive Council (EGSEC) 
co-chaired by the Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs and the Deputy Under Secretary of 
Defense for Installations and Enviromnent. The council is working to 
improve the security, adequacy, and reliability of electricity supplies 
and related infrastructure key to the continuity of critical defense 
missions. The EGSEC works closely with the Departments of Energy and 
Homeland Security, along with private-sector partners.
    Congress has issued a broader interpretation of energy security in 
Title 10, Section 2924, which the Department of Defense believes is a 
good start in defining energy security. This definition includes, 
``having assured access to reliable supplies of energy and the ability 
to protect and deliver sufficient energy to meet mission-essential 
requirements.''
    The Department's current facility energy strategy includes 
enhancing the energy security of DoD installations. The DoD Annual 
Energy Management Report (AEMR) for fiscal year 2011 describes the 
facility energy strategy and includes a chapter describing energy 
security activities for DoD installations (see Chapter 5 in the fiscal 
year 2011 AEMR).
    The Department's Installation Energy Management policy in DoDI 
4170.11 includes a broader interpretation of energy security (see 
Enclosure 3, Section 3c. in DoDI 4170.11). The Department is in the 
process of updating this policy to further broaden the interpretation 
of energy security for fixed installations.
    Question 4. How is DoD using the inter-agency system to share its 
intelligence gathering and modeling capability with DHS and its 
partners to better understand potential EMP threats? Is DoD taking 
advantage of FERC, DoE, and DHS' planning and response capabilities?
    Answer. DoD is using established intelligence community (IC) 
processes and mechanisms to share the results of its intelligence 
gathering on EMP threats with DoE, DHS, and other partners.
    DoD components who are also elements within the IC, such as DIA and 
(by extension) the Service Intelligence Centers (NASIC, NGIC, aNI) 
produce assessments on different aspects of EMP threats. Completed 
intelligence analysis on EMP threats is shared directly in 
collaborative efforts and made broadly available through Intelink and 
other collaboration tools.
    As a part of a 65-year partnership on nuclear weapons, DoD 
collaborates closely with DoE and its key laboratories to engage in 
research of common interest on EMP and other nuclear-related effects. 
DoD relies on the deep technical expertise resident at DoE labs to 
supplement DoD's weapon-specific expertise. Each DoE National lab also 
has a field intelligence element that is responsible for coordinating 
IC-related activities at the lab and assisting with sharing of 
intelligence products.
    DoD collaborates with DHS on EMP threats as just one of many areas 
of cooperation on homeland security. DHS has an extensive liaison 
relationship with NSA and an operational coordination relationship with 
USNORTHCOM.
    Those organizations across DoD, DoE, and DHS that deal with EMP 
threats are well-connected at both the leadership and rank-and-file 
level, ensuring robust intelligence sharing.
    Question 5. There is a DHS, DoD, and Department of Energy 
initiative to address EMP preparedness and grid reliability issues with 
private owners and operators. When was this partnership developed and 
what is its current status?
    Answer. The Energy Sector Public-Private Partnership (ES3P) 
initiative was established in March 2012 by the Department of Energy, 
the Department of Homeland Security, and the Department of Defense to 
engage sector stakeholders to understand, and where necessary, improve 
the energy surety (reliability, security, and resiliency) of 
infrastructure which supports National security missions. ES3P does not 
specifically focus on EMP-related events.
    The goal for the ES3P Joint Working Group (ES3PJWG) is to pull 
together the existing roles, responsibilities, and activities which 
currently support the Nation's public and privately-owned energy 
systems. Increasing efficiency through integrated activities across 
larger, interconnected systems should improve energy surety. This 
public-private partnership is intended to be a multi-stage initiative. 
Specifically, this initiative is designed to take a regional approach 
to the energy surety of critical infrastructure and installations.
    Currently, ES3P is engaged in ``The National Capital Region 
Initiative,'' which focuses on DoD mission assurance in the National 
Capital Region (NCR). Specifically, this initiative addresses the 
energy surety of DoD installations, critical infrastructure, and 
Defense Industrial Base (DIE) facilities that perform or support DoD 
critical missions in the NCR. Best practices established in the first 
stage will be applied in other National security mission areas in 
follow on stages.
     Questions From Ranking Member Yvette D. Clarke for Chris Beck
    Question 1. In your recent London Conference, there were 
representatives from business and industry, in addition to governments.
    Could you describe the conversations and discussions about how the 
insurance industry is viewing EMP and geomagnetic disturbances in the 
electric industry?
    Answer. The insurance industry is now becoming very active in this 
area. While high-impact, low-frequency (HILF) risks are difficult to 
handle with traditional, actuarial-style risk analysis, the industry 
recognizes that the serious consequences resulting from a large EMP/GMD 
event means that mitigation actions must be taken. Insurance companies 
are very exposed to space weather costs, with the primary expense 
likely to be contingent business interruption costs, in addition to the 
need to cover direct costs of insured equipment that would be damaged. 
The EIS Summit III report, which I supplied to the committee as an 
addendum to my testimony summarizes the insurance industry discussions 
(see pages 30-35). In addition, Lloyd's of London issued a report on 
Space Weather in 2010, which I am also attaching for your convenience.*
---------------------------------------------------------------------------
    * The information has been retained in committee files and is 
available at http://www.lloyds.com/lloyds/press-centre/press-releases/
2010/11//media/lloyds/reports/360/360%20space%20weather/
7311_lloyds_360_space%20weather_03.pdf.
---------------------------------------------------------------------------
    Question 2. Is the council proposing international standards for 
EMP and geomagnetic disturbance mitigation? Who would oversee such an 
effort?
    Answer. One of the broad, consensus recommendations that emerged 
during several of the discussions at our third Electric Infrastructure 
Security Summit on May 14-15, 2012, was the need for standards for 
electrical transformers and other electrical devices on electric grids 
throughout the world. Standards, whether National or international, are 
necessary to ensure some basic level of protection. Sweden, for 
example, has set a standard for the amount of geomagnetically-induced 
current (GIC) that all transformers on their grid must meet. Such 
standards allow electric grid owners and operators to procure equipment 
designed with GMD hazards taken into account. Without a standard, 
individual companies are doing the best they can, but this approach 
yields highly varied levels of protection. Because grids are all 
interconnected, ``weak links'' are present that put the entire system 
at risk. There are a number of approaches to begin developing such 
standards, including both relevant Government agency efforts and input 
from industry on best practices and experiences. Whatever the choice, 
it will be important to have it clearly defined, and designed to accept 
input from all relevant stakeholders and experts.
    Question 3. Electrical systems for countries are structured in 
different ways, for example we know that the system in S. Africa will 
need GMD protection that may vary from another country, and mitigation 
for GMD will have to be tailored to their needs.
    How do you plan to propose international standards if there are so 
many discreet and individual systems that will need specialized 
mitigation?
    Answer. The most fundamental standards required will refer to 
maximum tolerable off-nominal grid conditions. In the case of GMD, this 
would mean a standard that would limit maximum GIC flows in extra-high-
voltage (EHV) transformers or provide corresponding GIC withstand 
ratings in EHV transformers. Since these are transformer-specific 
approaches, they would be country- and system-independent. The country-
unique effort would take place in implementing the GMD standard, just 
as it does for implementing other standards, as each country, or 
coordinated group of system operators, works to evaluate--for their 
system--which approaches to assuring those standards/limits are met are 
best-suited to different elements of their power grid.
    Question 4. If commercial suppliers can produce mitigation devices 
that address protective strategies for expensive electrical equipment, 
then, what, in your opinion, is preventing them from marketing their 
products if their customers express a need for them?
    Answer. There are now three companies in the process of starting to 
market devices such as GIC current-blockers to customers, along with an 
increasing and impressive body of test data, which is a critical need 
to build confidence in their use by the energy sector. This marketing 
process has been slow to start due to the lack of any widely applicable 
standard, either voluntarily self-imposed, or else externally mandated. 
Once such a standard becomes available, and is broadly accepted, 
marketing of such devices will rapidly accelerate.

                                 <all>

</pre></body></html>
